T he Library of Congress
  Office of the Inspector General




Semiannual Report to the Congress
                   September 30, 2012
This semiannual report features the architecture of the Library of Congress, including artist renderings from
an 1873 competition for the design of a separate Library of Congress building. Since its establishment in
1800, the Library was housed in the U.S. Capitol building. In 1886, after many proposals and much con-
troversy, Congress authorized construction of a new Library building in the style of the Italian Renaissance
in accordance with a design prepared by Washington, DC architects John L. Smithmeyer and Paul J. Pelz.
When the Library of Congress building opened its doors to the public on November 1, 1897, it was hailed
as a glorious national monument and “the largest, the costliest, and the safest” library building in the world.

After nearly a century of use, the Congress appropriated funds in 1984 to restore the building to its 19th
century splendor while modernizing it for use in the 21st century. The building, named the Thomas Jefferson
Building in 1980, reopened in 1997 on its 100th anniversary. The Library of Congress continues to share
with the public its unparalleled research collections and the remarkable beauty of its art and architecture.

The vintage photograph on the cover of this report depicts the Thomas Jefferson Building and is typical of
stereograph cards popular during the mid-19th century. The double photographs, when viewed through a
stereograph device, create the illusion of a three-dimensional image.


Front and Back Covers: Exterior Front, Neptune Fountain,
Marble Hallway, and a View of the U.S. Capitol from the
Library’s Thomas Jefferson Building.

Stereograph Cards from the Prints and Photographs Col-
lection of the Library of Congress c. 1897-1907.

Above: View from the Senate Wing of the U.S. Capitol, by
Smithmeyer & Pelz, Architects.

Photographic Print on Emulsion Paper, c. 1889-1896.
September 30, 2012


A Message From the Inspector General
Over the last six months we prepared reports on procurement and disposal of information
technology workstations, collections security and management of the Asian Division, a contractor
claim, and the financial statements of the Open World Leadership Center and James Madison
Council Fund for fiscal year (FY) 2011. We also prepared a comprehensive evaluation tool for
the Library’s overseas offices. During this period, investigations focused on misuse of Library
computers, an employee conflict of interest, travel card abuse, financial fraud, defacement of
Library collections, and other matters. We also assisted outside law enforcement organizations,
recovered fraudulently obtained surplus Library books, and identified overcharges by a Library
contractor. Finally, we responded to two Congressional inquiries and testified before the
Committee on House Administration on our March 2012 report on the Library’s contracting
activities.

In the next six months, we will report on in-progress reviews of performance-based budgeting,
facilities management, collections development, cloud computing/virtualization technology, the
Library’s FY 2012 financial statements, and several investigative cases including a significant theft
case.

This period, our reviews identified $355,190 in funds to be put to better use, recoveries of $1
million in contractor overcharges, and $1,848 in misappropriated books. We are pleased to
report that the Library implemented 55 of our recommendations from prior semiannual periods.

Our publicly released reports are available online at www.loc.gov/about/oig. We appreciate the
cooperative spirit Library staff have shown during our reviews.




Karl W. Schornagel
Inspector General
Spread: Perspective Rendering of Proposed Library of Congress Building
by Adolph E. Melander, Architect.

Heliotype Print on Paper, c. 1873.
Table of Contents

In Summary.......................................................................................................................................      1
Top Management Challenges......................................................................................................                        7
Profiles............................................................................................................................................   11

Audits, Surveys, and Reviews......................................................................................................                     15
   IT Workstation Management..........................................................................................................                 15
       Asian Division Collections Security and Management .......................................................................                      17
       Open World Leadership Center FY 2011 Financial Statements............................................................                           21
       James Madison Council Fund FY 2011 Financial Statements..............................................................                           22
Investigations.................................................................................................................................        24
        Significant Criminal and Administrative Investigations......................................................................                   25
        Follow-up on Investigative Issue from Prior Semiannual Report.........................................................                         28
Other Activities............................................................................................................................           29
Review of Legislation and Regulations....................................................................................                              33
Unimplemented Recommendations............................................................................................                              34
Implemented and Closed Recommendations............................................................................                                     43
Funds Questioned or Put to Better Use...................................................................................                               51
Instances Where Information or Assistance Requests Were Refused...............................                                                         52
Status of Recommendations Without Management Decisions...........................................                                                      52
Significant Revised Management Decisions...........................................................................                                    52
Significant Management Decisions with Which OIG Disagrees.......................................                                                       52
Follow-up on Prior Period Recommendations........................................................................                                      52
Organizational Chart..................................................................................................................                 53
Hotline Information...............................................................................................Inside Rear Cover
                 In Summary . . .
                 Audits, Surveys, and Reviews
                 During this period, we conducted an audit to evaluate Library of Congress
                 (Library) performance in managing the lifecycle of equipment used for the
                 Library’s information technology (IT) workstations. These workstations
                 include computers, computer monitors, and software for Library office
                 functions, among other things.

                 Our work revealed that the Library continues to manage the workstations
                 according to industry standards. However, notwithstanding the positive
                 work being done, our audit showed that senior management must become
                 substantially involved in correcting the persistent problems identified in
                 previous Office of the Inspector General (OIG) reports concerning new and
                 excess IT equipment. These issues include unnecessary purchases and aging
                 of IT inventory, and an inefficient computer disposal process.

                 We identified unopened IT equipment in inventory with expired warranty
                 coverage. We also found violations of the bona fide needs rule, a statutory
                 rule that restricts the use of appropriated funds, for various purchases
                 of IT items. Among other actions, we recommended that Information
                 Technology Services (ITS) take steps to inform service and support units
                 about IT equipment available in inventory, and work in consultation with
                 the Office of the Chief Financial Officer’s Budget Office and the Office of
                 the General Counsel to establish a procedure that ensures IT equipment
                 purchases conform to bona fide needs rule restrictions. We identified
                 $355,190 in funds to be put to better use by improving management of IT
                 equipment.

                 During our fieldwork, we noted that computer disk sanitization was
                 performed in the Library’s Madison Building on Capitol Hill, and computers
                 were transported back and forth between that building and the Maryland
                 warehouse twice during out-processing. This disk sanitization procedure
                 added time, cost, and risk to the disposal process. We recommended
                 implementation of a more efficient and effective solution for sanitizing the
                 hard disks of excess computers.

                 The Library’s Asian Division (AD) manages one of the most comprehensive
                 collections of Asian language materials in the world. We completed
                 a performance audit during this period to evaluate AD management’s
                 protection of the division’s collection materials and its control over daily
                 operations. We focused on six major performance areas: 1) strategic
                 acquisition planning, 2) physical security, 3) contract administration, 4)
                 policy and procedure maintenance, 5) volunteers and personally identifiable
                 information (PII), and 6) internal control.


1 • Semiannual Report to the Congress
We identified improvements for acquisition procedures, physical security,
and inventory control for the AD’s most valuable items. We also noted
violations of Library policy on Contracting Officer’s Representatives and
that AD’s policy and procedure manuals were outdated, unconsolidated, and
inconsistent with Library of Congress Regulations. An OIG investigation
found a volunteer performing unauthorized work on a personal project for
an AD supervisor and our audit fieldwork identified unnecessary volunteer
PII maintained by the division. Lastly, we found the AD’s assessment of
its internal control program did not accurately reflect those areas’ internal
control environments.

AD management has a long history of turnover in the Chief position and
recent high-turnover in senior staff. However, the new Chief and Acting
Assistant Chief, appointed this fiscal year (FY), are making commendable
progress. We recommended that AD management effect changes in the
operational areas identified by our report to improve management and
stewardship of its collections. The AD significantly agreed with our findings
and recommendations. This audit report is not available to the public
because it identified specific vulnerabilities in collections security.

We also contracted with the consulting firm of CliftonLarsonAllen, LLP, to
perform audits of the Open World Leadership Center (a separate legislative
branch entity) and the James Madison Council Fund’s FY 2011 consolidated
financial statements.

These reports are further discussed beginning on page 15.




                                                          Image: Perspective Rendering of Proposed Library
                                                          of Congress Building by J.L. Smithmeyer & Co.,
                                                          Architects.

                                                          Ink on Paper, c. 1895.




                                               Semiannual Report to the Congress • 2
                                Investigations

                                Kenneth R. Keeler, Assistant Inspector General for Investigations,
                                retired during this semiannual period, marking the culmination of an
                                accomplished career in law enforcement. His career at the Library included
                                numerous high-quality criminal, civil, and administrative investigations
                                that helped the Library ensure accountability, maintain high standards of
                                ethical conduct, and resulted in successful prosecutions for crimes such as
                                child pornography and theft, and recoveries of stolen Library collections
                                and funds.

                                During this reporting period, OIG investigators discovered that a Library
                                security contractor providing services to the Library’s reading rooms and
                                                                               public areas routinely
                                                                               charged the Library for
                                                                               relief services performed
                                                                               by guards assigned to
                                                                               “roving” posts, contrary
                                                                               to the contract.     Based
                                                                               on the investigation, the
                                                                               U.S. Attorney for the
                                                                               District    of    Columbia
                                                                               reached an agreement with
                                                                               the contractor to pay the
                                                                               government a $1 million
                                                                               settlement.

                                                                                 OIG investigators revealed
                                                                                 that a Library manager used
                                Library contractors and volunteers to provide extensive personal services.
                                Additionally, one contractor filed a substantial claim against the Library for
                                the cost of the personal services performed for this Library manager. Many
                                of the issues uncovered by the investigation were addressed by a subsequent
                                OIG audit (see page 17).

                                The Library’s Security Operations Center reported to OIG that an employee’s
                                computer was repeatedly accessing Web sites containing pornography. An
                                OIG investigation confirmed that the employee regularly accessed Web
                                sites containing pornography using Library equipment. A suspension is
                                pending.


Above: Perspective Rendering of Proposed Library of Congress Building
by F. Schumann, Architect.

Ink on Paper, c. 1873.

 3 • Semiannual Report to the Congress
A Library employee admitted to using a government travel card for personal
expenses, and also used reimbursed travel funds that should have been
used to pay monthly travel card charges, to pay for personal expenses.
The employee entered into an alternative discipline agreement with
management, which states that for purposes of the record and progressive
discipline, his file will reflect a 20-day suspension.

One of the Library’s overseas offices uncovered a series of fraudulent
vouchers submitted by Library employees for payment. The Library
management investigation led to the revocation of security clearances
of two Foreign Service nationals and consequently, termination of their
employment.

After receiving an allegation from a citizen that a bookstore in Maryland
was selling books marked “Not for Resale” and “Library of Congress –
Surplus Book,” the OIG initiated an investigation. Investigators identified
more than 90 books fraudulently obtained from the Library’s Surplus
Books Program and returned the volumes to the Library. The individual
who obtained the books from the Library was previously debarred from the
Surplus Books Program.

The OIG also received information about a possible foreign counter
intelligence threat and referred the case to the Federal Bureau of Investigation.

An OIG investigation confirmed that a researcher defaced more than 20
Library books. Library management revoked research privileges after the
patron refused to make restitution of $700 to replace the books.

Internal Revenue Service special agents requested assistance from the OIG
to search for a Library patron using reading room computers to commit
financial crimes. The patron was wanted for a series of scams and frauds
and there were outstanding arrest warrants for the suspect. The suspect was
later apprehended in Washington, DC.

The OIG assisted the U.S. Capitol Police (USCP) concerning a criminal
complaint of a false fire alarm which led to the evacuation of the Library’s
Thomas Jefferson Building. After investigators determined that the suspect
was not a Library employee, the case was referred back to the USCP.

Investigators also followed up on a reading room arrest reported in our
March 2012 Semiannual Report to the Congress. The defendant was
sentenced to prison and probation.

These investigations are further discussed beginning on page 24.

                                                  Semiannual Report to the Congress • 4
                                        Other Activities

                                        The Library received a claim for costs incurred from a Library food service
                                        vendor. The Library subsequently asked the OIG to conduct an evaluation
                                        to determine if the claimed costs were allowable. We evaluated the costs to
                                        determine their reasonableness and allowability in accordance with govern-
                                        ment acquisition regulations and the terms of the contract. We determined
                                        that there was insufficient documentation in the contract file to make a de-
                                        termination of allowable costs. However, we identified several questionable
                                        legal aspects of the arrangement between the Library and the vendor and
                                        notified Library management of these issues.

                                        Also during this period, we developed a self-audit program for Library Ser-
                                        vices’ Overseas Operations Division and its six international field offices
                                        to allow evaluation of field offices without traveling to the sites. With the
                                        assistance of the Overseas Operations Division, we developed a three-part
                                        operational audit questionnaire that focuses on field office functions. The
                                        questionnaire will assist OIG in efficiently targeting areas for future audit
                                        work and raise awareness on effective program controls for overseas opera-
                                        tions.

                                        The Inspector General (IG) was selected by the Council of the Inspectors
                                        General on Integrity and Efficiency (CIGIE), a consortium of 73 federal
                                        statutory IGs, to be the Vice Chair of its Audit Committee. The mission
                                        of the CIGIE Audit Committee is to provide leadership to and serve as
                                        a resource for the federal              IG community. Specifically,
                                        the Audit Committee                         sponsors      and

Spread: Perspective Rendering of Pro-
posed Library of Congress Build-
ing by Alex R. Esty, Architect.

Ink on Paper, c. 1873.
coordinates audit-related activities that address multi-agency or government-
wide issues, maintains professional standards for OIG audit activities,
and administers the audit peer review program. In addition, the Audit
Committee serves as a resource for the IG community and offers insight and
leadership on government-wide issues such as improper payment initiatives.
The IG is also an active member of CIGIE’s Investigations and Legislation
Committees. As part of the IG’s service on the Audit Committee, the OIG
is conducting quality assurance oversight of CIGIE’s FY 2012 financial
statements audit.

During this period, the OIG responded to two Congressional inquiries
regarding open audit recommendations and reporting serious or flagrant
problems to Congress.

The Committee on House Administration conducted a hearing on an OIG
audit of the Office of Contracts Management that appeared in our March
2012 semiannual report. Library management and the IG testified at the
hearing.

These activities are discussed further beginning on page 29.
                               Top Management Challenges
                               This section provides a collective summary of issues that have been covered
                               over several years of OIG reviews that, in our view, represent long-term
                               challenges for the Library of Congress.

                               Facilities

                               Collections Storage—The Library currently faces a challenge in its mission
                               to properly store and preserve its collections. The floors in the stacks of
                               the Jefferson and Adams buildings are now being used to store the general
                               collections and the Library is double- and triple-shelving materials. There
                               are upwards of a million overflow volumes. The original construction
                               schedule for Fort Meade collection storage modules would have provided
                               space to house these collections and space for continuing expansion,
                               but the last module intended to store general collections was completed
                               in 2005 and filled in 2011. Modules 3 and 4, completed in 2009, were
                               intended for special format collections, which include items such as maps,
                               globes, manuscripts, prints and photographs, sheet music, and more. The
                               modules were scheduled to be filled by October 2012. No funding has
                               been appropriated for future modules at this time.

                               Although the Library is seriously addressing the overflow issue by installing
                               shelving for high-density storage at its Landover warehouse, this facility will
                               only be able to house about a million volumes. As the Library adds about
                               250,000 books and periodicals to the collections each year, the shortage of
                               space will continue to grow. Further exacerbating this issue is the lack of
                               secure storage for some rare and valuable collections. The Law Library, and
                               the Music and Asian Divisions, among others, have been forced to store
                               some of their rare materials in less-than-optimal conditions from a security
                               and environmental point of view.

                               Reading Room Space Allocations—The Internet age has allowed the
                               Library to increase public access to its collections by digitizing and placing
                               them online. The Library, through various cutting-edge programs, including
                               the National Digital Information Infrastructure and Preservation Program
                               is at the forefront of preserving digital content. Today, the Library’s Web
                               site, www.loc.gov, is among the Internet’s most visited, with billions of page
                               hits annually, and unrivaled depth and richness of content. However, this
                               shift in access modalities has resulted in a significant decrease in the in-
                               person use of Library materials and resources.



Right: Perspective Rendering of Proposed Library of Congress Building
by Smithmeyer & Pelz, Architects.

Ink on Paper, c. 1873.

7 • Semiannual Report to the Congress
Consequently, there is a significant amount of underutilized reading room
space. Despite the downward trend in readership, the Library has delayed
making decisions about possibly consolidating reading rooms. Better
utilization of reading room space could result in significant economy and
efficiency by shifting space to collections storage.

Conference and Training Rooms—An OIG audit identified an increasing
number of conference and training facilities in the Library’s James Madison
Memorial Building. In 2008 there were more than 120 such facilities in
the building totaling more than 42,000 square feet which were, in many
cases, underutilized. Consolidating and centrally locating and managing
conference and training rooms, as the Copyright Office has done, would
make a substantial contribution toward efficiency in the Library’s use of
floor space.

Information Technology Infrastructure

In 2009 we issued an audit report that focused broadly on the Library’s
plan for managing its IT infrastructure investments. The audit looked at
1) whether the Library’s IT strategic plan aligned with its overall strategic
plan, 2) the validity and integrity of the IT plan, 3) the appropriateness and
effectiveness of the Library’s IT organizational structure and placement,
and 4) the extent to which relevant recommendations made by the National
Research Council in a 2000 report were implemented by the Library. We
made a series of recommendations about 1) maturing the Library’s IT
strategic planning process, 2) making IT investments from a cost/benefit
and institution-wide perspective, 3) considering organizational changes,
4) implementing an Enterprise Architecture program for planning future
technology, and 5) improving customer service.

In FY 2010, the Library obligated $107 million for IT-related expenditures
(37% of its discretionary budget) for services, hardware, software,
and maintenance. We followed up in detail on this report during the
last semiannual period (ending March 2012). In general, we found
that the Library had implemented, or was implementing, most of our
recommendations, although progress was slower than we had expected.
We believe Library management’s continued focus on implementing these
recommendations will result in substantial long-term efficiencies.

In 2002, the Library opened a new Alternate Computing Facility (ACF).
The purpose of the facility was to provide backup storage for data located on
Capitol Hill and a recovery mechanism for important software applications
so that the Library could resume business, at least in a limited capacity,
in the absence of its Capitol Hill data center. In 2009, we reported that
it was unclear whether or not the ACF could successfully provide service
to its customers in the event of a catastrophic failure of the main data
center. Although the Library has developed plans for testing, there have
been significant delays, and exceedingly restricted resources could result in
further delays. As the Library’s financial system is now cross-servicing four
external clients, delays in failover testing become increasingly important.

One OIG report was issued during this semiannual period to address IT
related management challenges. A detailed description of this work begins
on page 15 of this report.

Performance Reporting

As a result of an OIG audit, and at the direction of Congress, the Library
adopted a planning, budgeting, and management system based on the
Government Performance and Results Act (GPRA). In its initial stages
the Library established a GPRA-styled strategic planning process, linked its
planning and budgeting to its strategic planning format, initiated GPRA-
styled annual program plans, and introduced performance management
to its workforce. The adoption of a GPRA-styled management approach
will allow the Library to better analyze and report its activities and more
successfully compete for diminishing discretionary funding.




                                                                                Left: Perspective Rendering of
                                                                                Proposed Library of Congress
                                                                                Building by Smithmeyer & Pelz,
                                                                                Architects.

                                                                                Graphite, Wash, and Ink on
                                                                                Paper, c. 1873.
Recognizing that the Library has developed a robust planning and budgeting
framework, it still has work to do to improve these processes. Following
the lessons learned by the executive agencies’ GPRA experiences, Library
management should be able to tailor its GPRA approach to fit its unique
operations and maximize the benefits of its GPRA efforts.

In passing the GPRA Modernization Act of 2010 (GPRAMA), Congress
made adjustments to assure that agencies more efficiently manage their
GPRA efforts, improve the quality of performance metrics, and clearly
disclose the accuracy of performance data. The Library has not yet
developed a mechanism for evaluating programs, provided a framework
for assuring consistent, valid, and verifiable metrics, or established a
methodology to relate resource allocations to program performance.
To its credit, Library management is in the process of designing a more
comprehensive performance management approach for FY 2014 to address
these challenges. To ensure success, the Library must design and implement
a GPRA framework that efficiently provides valid and reliable performance
metrics to support management decision-making.

Contracting

A series of OIG reports dating back to 2002 document weaknesses that
have beset the Library’s contracting function. Principal areas of concern
include questionable understanding of federal contracting by participants
in the contracting chain ranging from the service units to the contracting
office; poorly trained staff; a lack of continuity in leadership in the Office
of Contracts Management; a technically questionable financial system
contracting module; and ineffective contract review procedures. These
deficiencies may prevent the Library from obtaining the best value in
contracts and expose the Library to an unacceptably high risk of inefficiency
and waste of funds.

Work we conducted during the last semiannual period (ending March 2012)
concluded that the weaknesses we have reported in the Library’s contracting
function continue, and in fact, the function has further deteriorated since
our last report in 2008.

The Committee on House Administration conducted a hearing on our
recent report of the Library’s contracts function (see page 31). Based on
testimony and discussions with the Deputy Librarian about management
actions in response to our report, we believe the Library is on its way
to making substantial improvements to its contracting activities. Total
improvement in the Library’s contracting function is the only acceptable
outcome. We will actively monitor and report on progress in this area.

                                                Semiannual Report to the Congress • 10
                 Profiles
                 Library of Congress
                 The Library of Congress is the research and information arm of the United
                 States’ national legislature and the world’s largest storehouse of knowledge.
                 The mission of the Library is to support the Congress in fulfilling its
                 constitutional duties and to further the progress of knowledge and creativity
                 for the benefit of the American people. The mission is accomplished through
                 more than 4,000 employees and contractors, and $800 million in annual
                 appropriated funds and other financing sources.

                 Founded in 1800, the Library of Congress is also the nation’s oldest federal
                 cultural institution, holding more than 151 million items on 838 miles
                 of shelves. These items include books, manuscripts, maps, prints and
                 photographs, printed music, sound recordings, films, and microforms. Half
                 of the Library’s collections are from outside the United States, representing
                 470 languages. In addition to its three Capitol Hill buildings and Taylor
                 Street Annex in Washington, DC, the Library operates six overseas offices
                 and stores collections material in purpose-built facilities in Maryland and
                 at the National Audio Visual Conservation Center in Culpeper, Virginia.
                 Nearly 31.4 million original source analog items have been digitized and
                 are accessible at www.loc.gov. The Library also holds an exponentially
                 expanding collection of digital-born content.

                 The Library’s core organizational components are:

                    •	   The Office of the Librarian,
                    •	   Library Services,
                    •	   The U.S. Copyright Office,
                    •	   The Congressional Research Service,
                    •	   The Law Library,
                    •	   The Office of Strategic Initiatives, and
                    •	   The Office of Support Operations.

                 The Office of the Librarian provides leadership and executive management
                 to the Library, overseeing the implementation and management of the
                 Library’s mission to support the Congress in fulfilling its constitutional
                 duties and to further the progress of knowledge and creativity for the benefit
                 of the American people.

                 Library Services performs the traditional functions of a national library:
                 acquisitions, cataloging, preservation, and reference services for both digital
                 and conventional collections. It operates the National Library Service for
                 the Blind and Physically Handicapped and the American Folklife Center,
                 among other programs.

11 • Semiannual Report to the Congress
                                                              The U.S. Copyright Office administers the copyright
                                                              laws of the nation and registers copyrightable material;
                                                              its deposits of intellectual material (books, music,
                                                              and movies) substantially contribute to the Library’s
                                                              collections.

                                                              The Congressional Research Service supports the
                                                              legislative process by providing exclusively to Congress
                                                              objective, confidential assessments of public-policy
                                                              issues, and legislative options for addressing those
                                                              issues.

                                                              The Law Library assists Congress and the legislative
                                                              process by supporting comprehensive research on
                                                              foreign, comparative, international and U.S. law,
                                                              and other legal reference services.
Above: Design for Proposed Library
of Congress Building by Paul J. Pelz,
Architect.
                                        The Office of Strategic Initiatives directs the national program for long-
Photographic Print (of Original
Drawing c.1888), c. 1940-70.            term preservation of digital cultural assets, leads a collaborative institution-
                                        wide effort to develop consolidated digital future plans, and integrates the
                                        delivery of IT services.

                                        The Office of Support Operations provides centralized leadership and
                                        oversight of infrastructure services and includes: Human Resources
                                        Services, Integrated Support Services, the Office of Security and Emergency
                                        Preparedness, the Office of Contracts and Grants Management, and the
                                        Office of Opportunity, Inclusiveness, and Compliance.

                                        Last year, services provided by the Library included:

                                            •	   Fulfilling 550,590 reference requests,
                                            •	   Circulating 25 million disc, cassette, and Braille items to more 		
                                        	        than 800,000 blind and physically handicapped patrons,
                                            •	   Registering 670,044 copyright claims,
                                            •	   Receiving 22,000 items daily and adding more than 10,000 items 	
                                        	        daily to 	its collections,
                                            •	   Responding to more than 763,000 congressional reference requests 		
                                        	        and delivering to Congress more than 1 million research products and
                                        	        approximately 30,000 volumes from the Library’s collections, and
                                            •	   Providing to Congress access to more than 8,100 reports on 		
                                        	        legislative issues and preparing more than 1,600 tailored analyses.

                                        The Library of Congress also recorded 73.4 million visits and 512 million
                                        page-views of its primary source files on its Web site, and received 1.7
                                        million on-site visitors.

                                                                                         Semiannual Report to the Congress • 12
                              Office of the Inspector General

                              The establishment of statutory federal IGs began in 1978 to empower
                              independent audit and investigative organizations to focus on fraud,
                              waste, and abuse within federal agencies. The Library of Congress OIG
                              was established in 1988 as a non-statutory office deriving
                              its authority from the Librarian of Congress. The OIG
                              became statutory with the passage of the Library of
                              Congress Inspector General Act of 2005, with a mandate
                              to:

                                  •	
                                   Conduct and supervise audits and
                              	    investigations relating to the Library of Congress,
                                •	 Lead, coordinate, and recommend policies to
                              	    promote economy, efficiency, and effectiveness, and
                                •	 Keep the Librarian of Congress and the Congress
                              	    fully and currently informed about problems and
                              	    deficiencies relating to the administration 	
                              	    and operations of the Library of 		
                              	Congress.

                              The IG is a member of CIGIE, a unified
                              council of all federal statutory Inspectors
                              General, and serves on the council’s
                              Audit, Investigations, and Legislation
                              Committees.

                              This Semiannual Report to the Congress is a part of
                              the OIG’s statutory reporting requirement and is organized
                              to address the major functions of the office including:

                                  •	    Significant audits, investigations, and other
                              	         reviews and activities of the OIG,
                                  •	    Review of legislation and regulations
                              	         affecting the Library, and
                                  •	    Library decisions on OIG
                              	         recommendations and the status of 		
                              	         implementation, along with any resulting 	
                              	         monetary benefits.




Above: Plan and Sections of Proposed Library of Congress Building
by Alex R. Esty, Architect.

Color Ink and Wash on Linen, c. 1880.

 13 • Semiannual Report to the Congress
Audits are in-depth reviews that address the efficiency, effectiveness,
and economy of the Library’s programs, activities, and functions;
provide   information to responsible parties to improve public
                         accountability; facilitate oversight and
                             decision-making; and initiate corrective
                             action as needed.

                               Some audits address whether financial
                               statements fairly present financial positions,
                            results of operations, and cash flows. They
                        also assess whether an entity has adequate internal
                        control systems and complies with applicable
                        laws and regulations. The OIG also performs
                        related types of reviews such as inspections and
                        attestations.

                                Investigations are typically based on
                                  alleged or suspected wrongdoing by
                                  agency employees, contractors, or others
                                  responsible for handling federal resources.
                                  Violations of Library regulations or fraud
                                  committed against the Library can result
                                  in administrative sanctions and criminal
                                or civil prosecution. Contact information
                                for the OIG Hotline is located on the
                        inside rear cover of this report.

                        Our staff is educated and certified in various
                        disciplines. We are, collectively, four certified
                        public accountants (CPA), one attorney, one
                         certified internal auditor (CIA), two certified
                             information systems auditors (CISA), one
                              certified computer examiner (CCE), one
                              access data certified examiner (ACE),
                                one seized computer evidence recovery
                                 specialist (SCERS), three special agents, an
                               investigator, and other highly qualified staff.

OIG reports are available at www.loc.gov/about/oig.




                                            Semiannual Report to the Congress • 14
                                 Audits, Surveys, and Reviews
                                Information Technology Services
                                Integrated Support Services
                                Improvements Needed to Prevent Wasteful
                                Procurement and Inefficient Disposal of IT Workstations

                                Audit Report No. 2012-PA‐101
                                September 2012

                                IT equipment provides the Library of Congress with a critical means for
                                performing its many and varied activities. Accordingly, that equipment
                                must be diligently managed to ensure the Library continues to effectively
                                and efficiently serve the Congress and the American people.

                                We undertook this audit to evaluate the Library’s performance in managing
                                the lifecycle of equipment used for the Library’s IT workstations. Those
                                workstations include computers, computer monitors, and software for
                                Library office functions, among other things. Our work revealed that
                                the Library continues to manage the workstations according to industry
                                standards by upgrading computers to Microsoft Corporation’s Windows
                                7 operating system, using leading system management software, installing
                                hard disk encryption to laptops, and making IT equipment purchases
                                through the FedBid reverse-auction marketplace.

                                However, notwithstanding the positive work being done, our work showed
                                that senior management must become substantially involved in correcting
                                persistent problems identified in previous OIG reports that affect the
                                Library’s new and excess IT equipment. Communication and coordination
                                among Information Technology Services (ITS), Integrated Support Services
                                (ISS), and the service and support units must considerably improve to
                                prevent purchasing new IT equipment items when the same or equivalent
                                items are already available in the Library’s inventory.

                                Further details on our audit results are as follows.

                                A Lack of Inventory Controls Has Resulted in Unnecessary Purchases
                                and Aging IT Inventory–The Library is overstocked with IT equipment
                                items in inventory that are aging, and warranty coverage for many of the
                                items has expired. Among other reasons, this situation exists because
                                ITS and ISS were not effectively working in coordination with service
                                and support units on addressing IT equipment needs. As a result, more

Right: Plan of Top Story of Library of Congress Building
by John Fraser, Architect.

Ink and Watercolor on Paper, c. 1873.


 15 • Semiannual Report to the Congress
Semiannual Report to the Congress • 16
                 than $91,000 in purchases were made for laptops, printers, monitors,
                 and scanners from August 2008 to May 2012 even though the same or
                 equivalent items were available in inventory. Moreover, the Library is in
                 violation of the bona fide needs rule, a statutory rule that restricts the use
                 of appropriated funds, regarding various purchases of IT items. We believe
                 that $355,190 in IT purchases made with end of the year funding represents
                 wasted funds that could have been put to better use. Among other actions,
                 we recommended that ITS take steps to keep service and support units
                 informed about IT equipment which is available in inventory, and work in
                 consultation with the Office of the Chief Financial Officer’s Budget Office
                 and the Office of General Counsel to establish a procedure that ensures ITS
                 purchases of IT equipment conform to bona fide needs rule restrictions.

                 A Significant Element of the Computer Disposal Process Remains
                 Highly Inefficient–Weaknesses in disposing of excess computers described
                 in our March 2009 report, Inventory Management Problems Continue, Senior
                 Management Attention is Crucial (Report No. 2009-PA-102) continue
                 to exist. More than 1,100 computers at the end of their lifecycle were
                 sitting idle in the Library’s Landover warehouse in May 2012, awaiting
                 sanitization of their hard drives. ISS performed computer disk sanitization
                 in the Madison Building on Capitol Hill, which meant that computers
                 were transported back and forth between that building and the Landover,
                 Maryland warehouse twice during excess computer out-processing. The
                 disk sanitization procedure adds time, costs, and risk to an already time-
                 consuming computer disposal process and reduces future utility of the
                 equipment. In response to our audit, ISS began sanitizing hard drives in
                 the Landover warehouse instead of the Madison building in June 2012.
                 We recommended that ISS and ITS work collaboratively to identify and
                 implement an efficient and effective solution for sanitizing the hard disks
                 of excess computers before the computers are initially transported to the
                 Landover warehouse.

                 Management concurred with our findings.


                 Asian Division
                 Opportunities Exist to Improve the Security and
                 Management of the Asian Division Collections

                 Audit Report No. 2011‐PA‐108
                 September 2012

                 The Asian Division (AD) manages one of the most comprehensive
                 collections of Asian language materials in the world. Effective management
                 of the AD is essential to ensure that this unique collection remains available

17 • Semiannual Report to the Congress
                                 to support Congress and continues to benefit the American people. This
                                 report provides the results of our performance audit to evaluate AD
                                 management’s protection of the division’s collection materials and its
                                 control over daily operations. We focused on six major performance
                                 areas: 1) strategic acquisition planning, 2) physical security, 3) contract
                                 administration, 4) policy and procedure maintenance, 5) volunteers and
                                 personally identifiable information (PII), and 6) operating internal control.

                                 AD management is working to overcome a long history of turnover in the
                                 Chief position and recent turnover in senior staff. Although it is making
                                 progress in developing an environment which conforms to applicable Library
                                 regulations, we found a variety of problems that AD management must
                                 address. The following is a summary of our findings and recommendations.

                                 Comply with Acquisition Policies—We identified improvements
                                 for the AD’s acquisition procedures. First, the AD did not establish an
                                 acquisition strategy document for FY 2011. Second, we found inadequate
                                 documentation for processing donor gifts. We recommended that AD
                                 management finalize its acquisition strategy document and train staff to
                                 process recommendations for acquisitions and gifts.

                                 Improve Physical Security and Inventory Control for the Most Valuable
                                 Collection Items—We observed opportunities to improve physical
                                 security and inventory control for the AD’s most valuable items. The AD
                                 has not cataloged, photographed, or inventoried these items. As a result,




Above: Arrangement Study of the Main Reading Room by Smithmeyer & Pelz,
Architects.

Graphite, Ink, and Watercolor on Paper, c. 1889-1896.                           Semiannual Report to the Congress • 18
                                                       it would not be able to positively identify rare
                                                       and valuable collection items that were lost or
                                                       stolen. We recommended that AD officials
                                                       select a manageable number of its most valuable
                                                       items and catalog, photograph, and account for
                                                       these items during annual inventories.

                                                       Comply with Library Contracting Policy—
                                                       We found violations of Library policy by AD
                                                       Contracting Officer’s Representatives (COR)
                                                       and recommended only resident staff who have
Above: Second Story
Showing Third Tier of Al-    completed the Library’s mandatory COR training monitor AD contracts.
coves, Library of Congress
Building by Samuel Sloan,
Architect.
                             Update Policy and Consolidate Procedure Manuals—The AD’s policy
Ink and Watercolor on
Paper, c. 1873.
                             and procedure manuals are outdated, unconsolidated, and are inconsistent
Right: Ground Floor Plan
                             with prevailing Library of Congress Regulations. We recommended that
of the Library of Congress   the AD update policies and procedures to ensure they are consistent with
Building by Leon Beaver,
Architect.                   Library policies and consolidate them into one user-friendly manual.
Graphite and Wash on
Paper, c. 1873.
                             Strengthen Oversight of Volunteers and Personally Identifiable
                             Information—AD management should improve volunteer oversight. An
                             OIG investigation determined that one volunteer performed unauthorized
                             work on a personal project for an AD supervisor. Additionally, volunteer
                             agreements include volunteers’ social security numbers in violation of
                             Library PII policy. We recommended that the AD develop alternative
                             identification numbers for volunteers to protect their PII.

                             Address Weaknesses in Administrative Internal Controls—We found
                             the AD’s assessment of its inventory controls and secure collections
                             modules in icpManager—the Library’s internal control program system—
                             did not accurately reflect those areas’ internal control environment. We
                             recommended that AD management objectively assess internal control risks
                             affecting its operational areas, and accurately report the results.

                             Management significantly agreed with our recommendations.




 19 • Semiannual Report to the Congress
Semiannual Report to the Congress • 20
                               Open World Leadership Center

                               Fiscal Year 2011 Financial Statements

                               Audit Report No. 2011-FN‐103
                               July 2012

                               The mission of the Open World Leadership Center (Open World) is to
                               enhance understanding and capabilities for cooperation between the United
                               States and the countries of Eurasia and the Baltic States. In pursuing its
                               mission, Open World has developed a network of leaders in those regions
                               who have gained significant, firsthand exposure to America’s democratic,
                               accountable government and free-market system.

                               Since Open World’s founding by the Congress in 1999, it has emerged
                               as a unique resource for Members of Congress and their staff by assisting
                               Congress in its foreign policy oversight responsibilities. In this capacity,
                               Open World conducts one of the largest U.S. exchange programs for
                               Eurasia, through which some 6,100 volunteer American families in all
                               50 states have hosted thousands of emerging leaders from former Soviet
                               Union countries. As a result of these exchanges, hundreds of projects and
                               beneficial partnerships have been initiated and enhanced.

                               Open World is an independent entity in the legislative branch governed by
                               a board of trustees. Board members consist of Members of the Congress
                               and private citizens. Serving the board of trustees is the Audit Committee,
                               comprised of three members with extensive experience in Congress, federal
                               agency operations, finance, and accounting. The Audit Committee provides
                               oversight by assuring Open World management appropriately carries out
                               its responsibilities for internal control, financial reporting, compliance
                               with laws and regulations, ethics, and economies and efficiencies.

                               Under contract with the OIG, the accounting firm of CliftonLarsonAllen,
                               LLP (CLA) audited Open World’s FY 2011 financial statements and issued
                               its Independent Auditor’s Report. The audit included Open World’s balance
                               sheet and the related statements of net cost, changes in net position, and
                               combined statement of budgetary resources for FY 2011. The auditors
Above: Section Thru Center
of Main Reading Room,          concluded that the financial statements were presented fairly in all material
Library of Congress Building
by John Fraser, Architect.     respects, and in conformity with U.S. Generally Accepted Accounting
Graphite, Ink, Watercolor,
and Colored Pencil on Paper,
c. 1873.


 21 • Semiannual Report to the Congress
Principles (GAAP). The firm’s auditors also performed tests of compliance
with laws and regulations, and considered internal controls over financial
reporting and compliance. In its audit of Open World, CLA found no
material weaknesses in internal control and no reportable noncompliance
with the laws and regulations it tested.

James Madison Council Fund

Fiscal Year 2011 Financial Statements

Audit Report No. 2011-FN‐101
July 2012

The James Madison Council is an advisory body of public-spirited
individuals who contribute ideas, expertise, and financial support to promote
the Library’s collections and programs. The James Madison Council Fund
(Fund) was established in 1989 to encourage contributions not only for
current programs, but permanent endowments that will impact collections
and programs in the future.

Under contract with our office, CLA audited the Fund’s FY 2011 financial
statements and issued its Independent Auditor’s Report. The audit
included the Fund’s statement of financial position as of September 30,
2011, and the related statements of activities and cash flows. The auditors
concluded that the financial statements were presented fairly, in all material
respects, and in conformity with GAAP. The auditors found no significant
deficiencies in internal control over financial reporting, nor any instances of
noncompliance with laws and regulations that are required to be reported
under Generally Accepted Government Auditing Standards. However,
CLA found a material weakness in internal control over financial reporting
relating to the recording of contributions receivable; specifically, a bequest
naming the Fund as a beneficiary was recognized as revenue that should not
have been recorded.

For the preceding two audits, we performed the following steps to ensure
the quality of CLA’s work:

• Evaluated the qualifications and independence of the auditors,
• Reviewed the auditor’s approach and planning of the audits,
• Reviewed significant workpapers,
• Monitored the progress of the audits at key points,
• Coordinated meetings with Library management to discuss progress,
  findings, and recommendations,
• Performed other procedures we deemed necessary, and
• Reviewed and accepted CLA’s report.


                                                Semiannual Report to the Congress • 22
23 • Semiannual Report to the Congress
Investigations
During this reporting period, we opened 27 investigations and closed 31. We forwarded six investigations
to Library management for administrative action. Three investigations were forwarded to the Department
of Justice for criminal prosecution and none are pending. Investigation case and hotline activities are
detailed below.


 Table 1: 	        Investigation Case Activity
                                Criminal/Civil          Administrative                        Total
 From Prior Reporting Period          26                       9                               35
 Opened                               17                      10                               27
 Closed                               13                      18                               31


 End of Period                        30                       1                               31


 Table 2: 	        Hotline Activity
                                                              Count
 Allegations received                                              19
 Referred to management                                            6
 Opened as investigations                                          5
 Opened as audit                                                   0
 Closed with no action                                             8




                                                            Left: Plaster and Stucco Work for the Dome and Lantern of the Main
                                                            Reading Room, Library of Congress Building by Unknown Architect.

                                                            Photographic Print, c. Unknown.

                                                              Semiannual Report to the Congress • 24
                                Assistant Inspector General for Investigations Retires

                                Kenneth R. Keeler, Assistant Inspector General for Investigations, retired
                                in May, marking the culmination of an accomplished career in law enforce-
                                ment. Mr. Keeler joined the Library of Congress OIG in February 1995,
                                managed the Library’s investigative function in the Office of Security for six
                                years, then returned to the OIG in 2005 when the OIG received statutory
                                operating authority.

                                His career at the Library included numerous high-quality criminal, civil,
                                and administrative investigations that helped the Library ensure account-
                                ability and maintain high standards of ethical conduct. He received a Li-
                                brary OIG Special Act Award for Superior Federal Service for his outstand-
                                ing leadership on an investigation of over billing on a government contract.
                                Mr. Keeler was also recognized by the U.S. Attorney for the District of
                                Columbia for meritorious service and the highest standards of professional
                                law enforcement in the pursuit of justice for three cases that resulted in
                                five convictions on criminal charges for identity and property theft, and
                                embezzlement. He was responsible for many other successful criminal and
                                civil investigations, several involving proactive efforts, resulting in success-
                                ful prosecutions for crimes such as child pornography and theft that re-
                                sulted in restitution of government funds, penalties, and recoveries of stolen
                                Library collections.

                                Thomas E. Williams, Special Agent in Charge, replaces Mr. Keeler as head
                                of the OIG Office of Investigations. Mr. Williams brings to the OIG a
                                broad spectrum of government and private sector investigative experience
                                and substantial credentials in information technology forensics.

                                                                               Significant Criminal
                                                                               and Administrative
                                                                               Investigations

                                                                               Security Contractor
                                                                               Overbilling

                                                                               The Library contracts with Se-
                                                                               curiguard, Inc. (Securiguard),
                                                                               for security guard services
                                                                               including roving and relief
                                                                               guards for Library reading
                                                                               rooms and public areas. Un-
                                                                               der contracts executed in 2003
                                                                               and 2008, the company pro-
Above: View of Stair Hall Dome by Smithmeyer & Pelz, Architects.

Graphite on Tracing Paper, c. 1873-1892.

25 • Semiannual Report to the Congress
vided security guard personnel to fill roving guards and stationary relief
guards, among other services. As part of its contractual agreement, Securi-
guard was to provide guard relief at no charge to the Library.

The OIG extensively analyzed Securiguard’s contracts, timekeeping records,
and invoices for the contract years 2008 to 2010. The documentation and
analysis revealed that Securiguard routinely charged the Library for non-
billable relief services by assigning these services to roving officers during
their regular billable shifts. This practice occurred over several years and
resulted in significant overbilling to the Library.

Working with the U.S. Attorney for the District of Columbia, OIG inves-
tigators successfully demonstrated their case and Securiguard will pay a $1
million settlement to resolve this matter.

Conflict of Interest

The OIG received a complaint about a Library manager abusing contrac-
tors, volunteers, and subordinates; misusing authority; and potentially com-
mitting fraud. Our investigation revealed that the manager used Library
contractors and volunteers to provide extensive personal services, includ-
ing researching, editing, and scanning materials for the manager’s personal
projects and publications, as well as running personal errands and paying
for airline tickets and other travel expenses.

Of note was the manager’s relationship with a subcontractor working under
a cooperative agreement the Library had with another library. The subcon-
tractor later became a contractor for the Library, receiving two contract
awards from another Library of Congress division. The vendor filed a sub-
stantial claim against the Library for the personal services performed for the
Library manager.

We also determined that another Library vendor published books for the
manager and conducted personal services such as banking transactions,
travel arrangements, and hotel reservations.

The case was presented to the U.S. Attorney’s Office for the District of
Columbia and to the Superior Court of the District of Columbia, but was
declined for prosecution. The employee retired at the conclusion of our
investigation.

Many of the issues uncovered by the investigation including significant is-
sues with acquisition policies and procedures, physical security and inven-
tory control, oversight of volunteers and PII, and weaknesses in administra-
tive internal controls, were addressed by an OIG audit (see page 17).

                                                Semiannual Report to the Congress • 26
                 Misuse of Library Computer

                 The Library’s Security Operations Center reported that an employee’s com-
                 puter was repeatedly accessing Web sites containing pornography, and pos-
                 sibly child pornography. An OIG investigation confirmed that the employ-
                 ee regularly accessed inappropriate Web sites containing adult pornography
                 and nudity using the Library’s infrastructure. A suspension is pending.

                 Abuse of Government Travel Card

                 The Office of the Chief Financial Officer alerted OIG investigators
                 that a Library employee was potentially using a government travel card
                 inappropriately. The employee admitted using the travel card for personal
                 expenses and using reimbursed travel funds, intended to pay monthly travel
                 card charges, to pay for personal expenses. The employee entered into an
                 alternative dispute agreement with Library management and their employee
                 record will reflect a 20-day suspension.

                 Voucher Fraud

                 One of the Library’s overseas offices identified a series of fraudulent vouchers
                 submitted by Library employees for payment. The OIG was kept apprised
                 of management’s investigation which led to the revocation of security
                 clearances of two Foreign Service nationals and consequently, termination
                 of their employment. We recommended, and the Library agreed, that OIG
                 personnel brief overseas staff prior to assignment overseas, or during home
                 training sessions, concerning internal controls and fraud.

                 Recovery of Misappropriated Books

                 The OIG initiated an investigation after receiving an allegation from a
                 citizen that a bookstore in Maryland was selling books marked “Not for
                 Resale” and “Library of Congress – Surplus Book.” The OIG visited the
                 bookstore and identified 91 children’s books with the restrictive markings.
                 Many of the books had the “Not for Resale” stamp either crossed out
                 or otherwise concealed. We returned the 91 books to the Library and
                 confirmed that the books were fraudulently obtained from the Library’s
                 Surplus Books Program. The bookstore owner was not involved in the
                 fraudulent activity, and was cooperative. The individual who obtained the
                 books from the Library was previously debarred from the Surplus Books
                 Program. The recovered books had a retail value of $1,848.




27 • Semiannual Report to the Congress
Foreign Counter Intelligence Investigation
of Former Library of Congress Employee

The OIG referred a case to the Federal Bureau of Investigation (FBI) upon
receiving information about a possible foreign counter intelligence threat.
The FBI is conducting an investigation into the matter.

Assistance to the IRS in Fugitive Search

Internal Revenue Service special agents requested assistance from the OIG to
search for a patron who had used Library reading room computers to commit
financial crimes. The patron was wanted for a series of scams and frauds
and there were outstanding arrest warrants for the suspect in Massachusetts
and Florida. The patron was later apprehended in Washington, DC.

Patron Defaces Books

Based on a review of Library research materials, Library Services alerted
OIG of a researcher defacing collection items. The OIG analyzed evidence
left by the researcher to confirm the patron’s identity. Once identified and
interviewed by investigators, the researcher admitted to defacing more than
20 Library research books. Library management revoked research privileges
after the patron refused to make a $700 restitution.

Assistance to U.S. Capitol
Police on False Evacuation

OIG assisted the U.S. Capitol Police (USCP) concerning a criminal
complaint of a false fire alarm which led to the evacuation of the Library’s
Thomas Jefferson Building. Witness interviews and extensive analysis of
security camera footage allowed OIG investigators to decipher the incident
and obtain a still photo of the suspect. After investigators determined that
the suspect was not a Library employee, the case was referred back to the
USCP.

Follow-up on Investigative Issue
from Prior Semiannual Report

Reading Room Arrest

A defendant previously arrested at the Library (OIG March 2012 Semiannual
Report, page 29) was sentenced in Pennsylvania to an additional two to five
years in prison for accessing child pornography materials at the Library,
violating parole restrictions, and failing to report as a Megan’s Law offender.
The defendant was sentenced to five additional years of probation after
completing the prison term.
                                                Semiannual Report to the Congress • 28
                                Other Activities
                                FAME Food Management, Inc. Claimed Costs
                                June 2012

                                During FY 2011, the Library was in the process of recompeting its no-cost
                                food services contract with FAME Food Management, Inc. (FAME). Due
                                to various unforeseen circumstances, the Library was unable to effect a tran-
                                sition to a new vendor as of the expiration date of the previous contract. As
                                a result, it extended FAME’s contract for a period of three months. FAME
                                subsequently presented the Library with a claim for certain costs it incurred
                                during this interim period. The Library asked the OIG to review the claim
                                to determine if the claimed costs were allowable.

                                We evaluated the costs to determine their reasonableness and allowability
                                in accordance with government acquisition regulations and the terms of
                                the contract. We were unable to find sufficient supporting information in
                                the contract file to make a determination on allowability of costs, and the
                                lack of specificity about applicable laws made us question the validity of the
                                contract vehicle used during the interim period.

                                The information we collected called into question several legal aspects of
                                the arrangement between the Library and the contractor during the inter-
                                                      im period. Specifically, we questioned whether the
                                                      contract’s continuity of services clause was appro-
                                                      priate for implementing a service proposal for the
                                                      interim period. Additionally, the contract modifi-
                                                      cation to extend the food service was not signed by
                                                      the contractor.

                                                               We recommended that the contracting officer
                                                               work with the Office of the General Counsel to
                                                               examine these matters and to determine an appro-
                                                               priate response.

                                                               Overseas Offices
                                                               Audit Program Questionnaire
                                                               September 2012

                                                               Library Services’ Overseas Operations Division
                                                               and its six international field offices devote their
                                                               activities to accomplishing the Library’s goal of ac-
                                                               quiring a universal collection of knowledge. The
Above: Reproduction of Architectural Decorations for the
Library of Congress Building, Originally by Andrea Palladio.

Photographic Print Reproduction, c. 1940-1970.

 29 • Semiannual Report to the Congress
offices in Cairo, Islamabad, Jakarta, Nairobi, New Delhi, and Rio de Janeiro
maintain a network of vendors searching out materials through purchase,
exchange, and gift. The field offices also acquire materials for other librar-
ies and research institutions through the Cooperative Acquisitions Program
(CAP). The Library of Congress operates CAP on a cost-recovery basis.

Resident in U.S. embassies, senior Library officials manage field office op-
erations with staffs largely populated by local residents. The Department
of State’s financial management systems record direct operating expenses
and pass those and overhead costs along to the Library’s financial manage-
ment system. In the past, the OIG occasionally visited the field offices to
conduct site audits to evaluate field office compliance with Library policies
and procedures.

As part of its ongoing efforts to maximize budgetary resources, the OIG
with the assistance of Library Services’ Overseas Operations Division re-
vamped its approach to auditing field office operations. OIG developed an
extensive three-part operational audit questionnaire that focuses on field
office functions including personnel administration and payroll, CAP de-
posits, acquisitions, correspondence, operations, shipping, travel expense
and accounting, cash management, and vehicle control and accountabil-
ity. Based on field office responses, OIG will conduct follow-up inquiries
using video conferencing, email, and telecommunications to obtain audit
evidence and evaluate internal controls, compliance with laws and regula-
tions, financial management, and performance management. OIG will
implement this new audit methodology as part of its FY 2013 audit plan.

Inspector General Responds
to Congressional Inquiries

April-August 2012

The OIG responded to a request from Representative Darrell Issa, Chair,
House Committee on Oversight and Government Reform, about infor-
mation on open and unimplemented recommendations and recommenda-
tions with estimated cost savings. The Congressman requested that OIG
identify and report on the three most important open and unimplemented
recommendations, and the number of recommendations accepted and im-
plemented by the Library since April 2011.

In a separate inquiry, Representative Issa requested information about
OIG reporting to the Congress about serious or flagrant Library issues.




                                                Semiannual Report to the Congress • 30
                                Inspector General Testifies on
                                Library-Wide Acquisitions

                                The IG testified before the Committee on House Administration (CHA),
                                Subcommittee on Oversight, at the hearing “Library of Congress: 2012
                                Inspector General Report on Library-Wide Acquisitions” July 19, 2012
                                concerning the Library’s contracting activities. The testimony was based
                                on an audit report the OIG issued on this topic in March 2012. The OIG
                                contracted with Jefferson Solutions, a consulting firm with extensive exper-
                                tise in the federal acquisitions process, to perform the evaluation of the Li-
                                brary’s Office of Contracts Management. The Deputy Librarian, the Chief
                                of Support Operations, and the IG testified on the status of the more than
                                50 recommendations identified in the report.

                                Additionally, the OIG received follow-up questions concerning the hearing
                                from Subcommittee Chairman Phil Gingrey. The questions involved the
                                qualifications of the contract firm who conducted the 2012 review, OIG
                                verification of the accuracy of the contractor’s findings, sole source con-
                                tracts, Federal Acquisition Regulation applicability, OIG resources, project
                                planning, and reporting.

                                The IG’s testimony and redacted report, Ongoing Weaknesses in the Acqui-
                                sition Function Require a Senior Management Solution, March 2012, can
                                be accessed on the OIG Web site at www.loc.gov/about/oig or from the
                                Library of Congress Web site at www.loc.gov under “Inspector General.”

                                IG Participates in CIGIE Committees
                                The IG was selected to participate on the Legislation Committee of the
                                Council of the Inspectors General on Integrity and Efficiency (CIGIE) and
                                became Vice Chair of the Council’s Audit Committee. The CIGIE Audit
                                Committee provides leadership for the federal audit community, sponsors
                                and coordinates multi-agency and government-wide audits, develops and
                                maintains professional standards for OIG audit activities, and provides
                                oversight for auditor training.

                                The Audit Committee was actively engaged in reporting the successes of the
                                Chief Financial Officers Act of 1990 and recommended legislative chang-
                                es to improve the Act. The report was sent to the Senate Committee on
                                Homeland Security and Governmental Affairs and the House Committee
                                on Oversight and Government Reform as well as the Comptroller General
                                of the United States.

Opposite Above: From Drawings of Leaded Glass Work, Skylights, and
Octagon Windows by Smithmeyer & Pelz, Architects.

Ink and Watercolor on Linen, c. 1895.

 31 • Semiannual Report to the Congress
An Audit Committee working group explored a proposal offered by the
Office of Management and Budget involving CIGIE and the Single Audit
Clearinghouse, and issued a white paper on its results. Specifically, the
white paper described the legal underpinnings of the Single Audit Act and
the Clearinghouse; the operations, needs, and challenges of the Clearing-
house and the expectations of its users; and the possible roles that CIGIE
could play related to the Clearinghouse.

The Audit Committee Chair, along with two other representatives from
the IG community, served on the Comptroller General’s Advisory Council
on Government Auditing Standards, and was instrumental in the issuance
of the revision of the Government Auditing Standards. These professional
standards serve as a framework for performing high-quality audit work with
competence, integrity, objectivity, and independence to provide account-
ability and to help improve government operations and services.

The Audit Committee continued to administer CIGIE’s audit peer review
program to promote OIG compliance with Government Auditing Stan-
dards and CIGIE’s Guide for Conducting External Peer Reviews of the Audit
Organizations of Federal Offices of Inspector General. The Audit Committee
updated the CIGIE peer review schedule; considered and approved, as ap-
propriate, requests for peer review extensions and schedule adjustments;
and began planning the Committee’s approach for updating the peer review
guide in light of the recent revision of the Government Auditing Standards.

The Audit Committee worked with the Government Accountability Of-
fice (GAO) to host the annual CIGIE/GAO Financial Statements Audit
Conference. The conference covered issues related to annual financial state-
ments audits and related standards.

The Audit Committee supported CIGIE’s efforts to engage contractor ser-
vices for conducting CIGIE’s annual financial audit. Specifically, the Audit
Committee Vice Chair assisted in defining the statement of work and served
as the Contracting Officer’s Representative for the CIGIE financial audit.
As part of the IG’s service on the Audit Committee, the OIG is conducting
quality assurance oversight of CIGIE’s FY 2012 financial statements audit.

The IG is also continuing active membership on CIGIE’s Investigations
Committee.



                                              Semiannual Report to the Congress • 32
Review of Legislation and Regulations

 Table 3:                      Review of Library of Congress Regulations (LCRs) and Directives
          LCR Reviewed                                       Comments by the Office of the Inspector General
 LCR 2020-7
 Alternative Dispute Resolution          We suggested clarifying the current language by providing specifics about when the stay of management
 Process for Non-Bargaining Unit         action would be put into place.
 Employees
 LCR 1600	
 Information Resource                    We recommended that the Enterprise Architect report directly to the Deputy Librarian, otherwise the
 Management Policy and                   Information Technology Steering Committee should continue to provide oversight.
 Responsibilities
                                         We suggested the National Oceanic and Atmospheric Administration Commissioned Corps be
 LCR 2012-2		
                                         included as part of the uniformed services. We also suggested that guidance be included for managers
 Service in the Uniformed Services
                                         specifying the amount of days of paid military leave allowable for reservists/guard members.
 LCR 219-5		
 Functions and Organization of
                                         We offered no comments regarding this LCR.
 the Office of Special Events and
 Public Programs
 LCR 1120		
                                         We offered no comments regarding this LCR.
 Special Events
 LCR 1620		
 Information Technology Security         We offered no comments regarding this LCR.
 Policy of the Library of Congress
                                         We recommended that a separate subsection be added to include the matters pertaining to the OIG,
 Office of the General Counsel           either arising from OIG investigations or pertaining to its employees and operations. Many civil and
 (OGC) Directive 10-02                   criminal matters arising from OIG investigations will be handled primarily by the Department of
 Litigation-Implementation of            Justice, rather than OGC. We also suggested that this directive, which covers settlement agreements
 Settlement Agreements                   in Administrative Claims and Federal Court Claims, exclude OIG employment and operational
                                         disputes.




Above: From Drawings of Leaded Glass Work, Skylights, and Octagon
Windows by Smithmeyer & Pelz, Architects.

Ink and Watercolor on Linen, c. 1895.

 33 • Semiannual Report to the Congress
Unimplemented Recommendations
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject            Report No.          Office          Rec. No.                 Summary and Status of
                          Issue Date                                                     Recommendation
Office of the Librarian
                                                                            System managers for Raiser’s Edge should regularly
                                                                            review the system’s transaction logs for suspect data
Raiser’s Edge              2006-IT-302     Development                      events—Information Technology Steering Com-
                                                                 III
Software Program          December 2007       Office                        mittee (ITSC) is working to move Raiser’s Edge into
                                                                            ArcSight to commence recommended reviews. The
                                                                            target date for completion is December 2012.
                                                                            Create a policy using Internal Revenue Service
                                                                            rules to properly classify workers as independent
                                                                            contractors or employees and require service units
                          2010-PA-105      Office of the
Multi-Sector Workforce                                          III.1       to submit documentation on the test to the Office
                          March 2011      General Counsel
                                                                            of Contracts Management (OCM) for nonperson-
                                                                            al contract services—Management has not made
                                                                            progress on implementing this recommendation.
Office of Support Operations (OSO)
                                                                            The Library should determine if centralizing tele-
                                                                            working policy-making authority in a Telework
                                                                            Coordinator would add value to the program—The
                          2010-PA-102     Office of Support                 Executive Committee (EC) did not agree with ap-
Telework Program                                                I.1
                           June 2011         Operations                     pointing a Telework Coordinator but did establish
                                                                            a committee to provide recommendations. This has
                                                                            been placed on the Human Capital Planning Board
                                                                            (HCPB) agenda for action in FY 2013.
                                                                            The Library should collect data on, and evaluate
                                                                            the costs and benefits of, teleworking to determine
                                                                            whether it provides a cost-effective means to per-
                          2010-PA-102     Office of Support                 form specific work requirements—OSO conducted
Telework Program                                                I.3
                           June 2011         Operations                     a Library-wide survey of service and support units’
                                                                            teleworking practices and provided the results to the
                                                                            HCPB for analysis and a conclusion by the end of
                                                                            FY 2013.
                                                                            The Library should develop a telework health and
                                                                            safety checklist and incorporate it into its telework
                          2010-PA-102     Office of Support
Telework Program                                                I.4         agreement forms—The HCPB will determine how
                           June 2011         Operations
                                                                            to best implement this recommendation and targets
                                                                            implementation for the end of FY 2013.
                                                                            The Library should develop an interactive telework
                                                                            training program and require teleworkers and their
                                                                            managers to successfully complete it before begin-
                          2010-PA-102     Office of Support
Telework Program                                                I.5         ning telework—Human Resources Services (HRS)
                           June 2011         Operations
                                                                            will design a Library-specific course for managers,
                                                                            and a companion course for staff for release in the
                                                                            second quarter of FY 2013.
                                                                            The Library should revise LCR 2014-8 to address
                                                                            the permissibility of accessing sensitive, unclassified,
                                                                            and “For Official Use Only” data at offsite loca-
                          2010-PA-102     Office of Support                 tions—Management did not concur that the LCR
Telework Program                                                I.6
                           June 2011         Operations                     should be revised, but agreed to review the regula-
                                                                            tion and amend if appropriate. This item has been
                                                                            referred to the HCPB for inclusion on its FY 2013
                                                                            agenda.

                                                                       Semiannual Report to the Congress • 34
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.          Office           Rec. No.              Summary and Status of
                        Issue Date                                                   Recommendation
Office of Support Operations (OSO) Continued
                                                                        The Library should review positions to determine
                                                                        if they are prone to telework and do not create an
                                                                        additional burden on other areas—Service and sup-
                        2010-PA-102    Office of Support                port units (SU)s have identified positions approved
Telework Program                                               II.1
                         June 2011        Operations                    for telework and validated impact on the work of
                                                                        the unit. The information collected will be consid-
                                                                        ered by the HCPB in its FY 2013 review of telework
                                                                        issues.
                                                                        The Library should institute policies requiring the
                                                                        availability of teleworkers by email, telephone, and
                                                                        in person when needed including the use of remote
                        2010-PA-102    Office of Support                call coverage for positions involving frequent tele-
Telework Program                                               II.2
                         June 2011        Operations                    phone use—The Library-specific telework training
                                                                        program being developed by HRS will address re-
                                                                        quirements for teleworker availability. HRS will
                                                                        implement in second quarter FY 2013.
                                                                        The Library should require employees who are
                                                                        expected to telework during a Continuity of Op-
                                                                        erations (COOP) event to have adequate training,
                        2010-PA-102    Office of Support
Telework Program                                              IV.1.a    infrastructure support, and practice—The Office of
                         June 2011        Operations
                                                                        Security and Emergency Preparedness’s (OSEP)’s
                                                                        target date for Library-wide COOP roll-out is sec-
                                                                        ond quarter FY 2013.
                                                                        The Library should have a telework agreement in
                        2010-PA-102    Office of Support                place that provides for a COOP event—OSEP’s tar-
Telework Program                                              IV.1.b
                         June 2011        Operations                    get date for Library-wide COOP roll-out is second
                                                                        quarter FY 2013.
                                                                        The Library should incorporate teleworking scenar-
                        2010-PA-102    Office of Support                ios in the Library’s COOP exercises—OSEP’s tar-
Telework Program                                               IV.2
                         June 2011        Operations                    get date for Library-wide COOP roll-out is second
                                                                        quarter FY 2013.
Office of Contracts Management (OCM)
                                                                        Establish a support component to ensure effective
                                                                        and efficient performance of critical functions that
                                                                        support the OCM. The position should be staffed
Weaknesses in the       2011-SP-106    Office of Contracts              with a senior, experienced General Schedule (GS)
                                                               I.A.1
Acquisition Function    March 2012       Management                     1102, Grade 14—OCM developed a recruitment
                                                                        strategy for this position with a target date for com-
                                                                        pletion in December 2012, based on availability of
                                                                        funds.
                                                                        Rewrite the Contracts Operating Instructions
                                                                        (COI) manual deleting those policies that merely
                                                                        restate the Federal Acquisition Regulation and draft
                                                                        specific guidance geared toward the Library’s acqui-
Weaknesses in the       2011-SP-106    Office of Contracts              sition activities. Organize the COI so that it is easily
                                                               I.A.2
Acquisition Function    March 2012       Management                     accessible—A multi-disciplinary team was estab-
                                                                        lished FY 2012 to evaluate current acquisition pol-
                                                                        icy and create new policies, operating procedures,
                                                                        templates, and desktop references where applicable.
                                                                        The target date for completion is December 2012.

35 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.         Office           Rec. No.              Summary and Status of
                        Issue Date                                                  Recommendation
                                                                       Fill the Director slot with a permanent, qualified,
                                                                       and experienced acquisition professional. This will
                                                                       signal the importance of the acquisition function
Weaknesses in the       2011-SP-106   Office of Contracts              within the Library and provide much-needed guid-
                                                              I.B.1
Acquisition Function    March 2012      Management                     ance and leadership to the OCM—OCM is devel-
                                                                       oping a recruitment strategy based on availability of
                                                                       funds. The target date for completion is December
                                                                       2012.
                                                                       Strengthen the oversight process by putting a more
                                                                       rigorous Contract Review Board (CRB) process in
Weaknesses in the       2011-SP-106   Office of Contracts              place—OCM will strengthen oversight of the CRB
                                                              I.F.1
Acquisition Function    March 2012      Management                     process by implementing a more rigorous quality as-
                                                                       surance program. The target date for completion is
                                                                       December 2012.
                                                                       Rewrite COI 1003 to be a more comprehensive
                                                                       Oversight Policy and Contract Review Process—
                                                                       COI 1004 issued by the Chief of Contracts De-
Weaknesses in the       2011-SP-106   Office of Contracts              cember 2011 significantly enhances and defines the
                                                              I.F.2
Acquisition Function    March 2012      Management                     review and oversight responsibilities during the pre-
                                                                       award phase. COI 1003 will be updated to reflect
                                                                       the products produced from COI 1004. The target
                                                                       date for completion is December 2012.
                                                                       Institute a set of controls to ensure COI 1002,
                                                                       Acquisition Planning Policy, is adhered to—COI
                                                                       1002, Acquisition Planning Policy will be rewritten
Weaknesses in the       2011-SP-106   Office of Contracts              to incorporate recent changes to the Library-wide
                                                             II.A.1
Acquisition Function    March 2012      Management                     acquisition planning process. OCM will establish
                                                                       controls and procedures to ensure adherence and
                                                                       compliance with all applicable directives. The target
                                                                       date for completion is December 2012.
                                                                       Develop directives that clearly set forth the policy
                                                                       and constraints for using LCR 2111—The Office
                                                                       of the General Counsel (OGC) is working on revi-
                                                                       sions to LCR 2111 and its accompanying form (LW
Weaknesses in the       2011-SP-106   Office of Contracts
                                                             II.G.1    3/63) and will coordinate with OCM. Once the
Acquisition Function    March 2012      Management
                                                                       LCR is approved for implementation, OCM will
                                                                       issue guidance that clearly sets forth the policy and
                                                                       constraints. The target date for implementation by
                                                                       the end of FY 2013.
                                                                       Utilize performance-based acquisition methodolo-
                                                                       gies as a method to promote thinking in terms of
                                                                       outcomes and deliverables—OCM agrees there is
Weaknesses in the       2011-SP-106   Office of Contracts
                                                             II.H.2    a need to incorporate performance-based contract-
Acquisition Function    March 2012      Management
                                                                       ing methodologies in the acquisition planning and
                                                                       acquisition strategy process with service units. The
                                                                       target date for completion is December 2012.




                                                                  Semiannual Report to the Congress • 36
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.         Office           Rec. No.              Summary and Status of
                        Issue Date                                                  Recommendation
Office of Contracts Management (OCM) Continued
                                                                       Ensure that the contracting officer and management
                                                                       carefully review the use and exercise of options—
                                                                       The OCM quality assurance program will include
Weaknesses in the       2011-SP-106   Office of Contracts
                                                              II.I.2   review of the use and exercise of options. This will
Acquisition Function    March 2012      Management
                                                                       be included in policies and procedures drafted by
                                                                       the multidisciplinary team. The target date for com-
                                                                       pletion is December 2012.
                                                                       Ensure Momentum is properly configured to meet
                                                                       contracting specialists’ needs—OCM is regularly
                                                                       engaged with the system owner to identify contract-
Weaknesses in the       2011-SP-106   Office of Contracts
                                                              II.J.1   ing specialists’ needs, requirements, and challenges.
Acquisition Function    March 2012      Management
                                                                       System requirements will be defined to include use
                                                                       of the Momentum system. The target date for com-
                                                                       pletion is December 2012.
                                                                       Modify Momentum acquisitions to create all of the
                                                                       different types of contract documents needed—
                                                                       OSO engaged an outside consultant to conduct a
Weaknesses in the       2011-SP-106   Office of Contracts              program assessment of OCM to identify challenges,
                                                              II.J.2
Acquisition Function    March 2012      Management                     best practices, and make recommendations for im-
                                                                       provement for more efficient contract management.
                                                                       The target date for implementation is December
                                                                       2012.
                                                                       Develop an automated tool to enable customers to
                                                                       quickly and easily track progress of their requisitions
                                                                       and to further promote effective communication—
Weaknesses in the       2011-SP-106   Office of Contracts              OSO engaged an outside consultant to conduct a
                                                             III.A.4
Acquisition Function    March 2012      Management                     program assessment of OCM to identify challenges,
                                                                       best practices, and make recommendations for au-
                                                                       tomating and tracking the contracts process. The
                                                                       target date for implementation is December 2012.
                                                                       Restructure the Alert Handbook into a series of
                                                                       user-friendly, PowerPoint customer service training
                                                                       packages directed at two levels, executive leadership
Weaknesses in the       2011-SP-106   Office of Contracts
                                                             III.B.1   and service units (SU)s—OCM will create 1) a Desk
Acquisition Function    March 2012      Management
                                                                       Guide for executive leadership and 2) Standard Op-
                                                                       erating Procedures (SOP) for SU procurement staff.
                                                                       The target date for completion is December 2012.
                                                                       Develop a procurement process SOP so that cus-
                                                                       tomers understand that a good procurement pack-
                                                                       age includes a statement of work, market research,
                                                                       independent government cost estimate (IGCE), and
                                                                       the evaluation factors used in the evaluation pro-
Weaknesses in the       2011-SP-106   Office of Contracts
                                                             III.B.4   cess. The SOP should include a procurement pack-
Acquisition Function    March 2012      Management
                                                                       age checklist—OSO established a multidisciplinary
                                                                       team to evaluate current acquisition policy and cre-
                                                                       ate new policies, operating procedures, templates,
                                                                       and desktop references where applicable. The target
                                                                       date for completion is December 2012.




 37 • Semiannual Report to the Congress
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
        Subject           Report No.            Office           Rec. No.                Summary and Status of
                          Issue Date                                                       Recommendation
                                                                              Develop a knowledge center in a SharePoint environ-
                                                                              ment for the acquisition workforce, providing them
                                                                              with a single point of entry to Web sites, electronic
                                                                              tools, reporting, templates, policy, people, organiza-
                                                                              tions, wikis, blogs, and discussion groups relevant to
 Weaknesses in the         2011-SP-106     Office of Contracts
                                                                  III.D.1     their mission—OSO engaged an outside consultant
 Acquisition Function      March 2012        Management
                                                                              to conduct a program assessment of OCM to identify
                                                                              challenges, best practices, and make recommenda-
                                                                              tions for automating and tracking the contracts pro-
                                                                              cess. The target date for implementation is December
                                                                              2012.
                                                                              OCM and the Office of the Chief Financial Officer
                                                                              (OCFO) should update directives to officially reflect
                                                                              the current spending limit for micro purchases of
                           2011-SP-101     Office of Contracts
 Improper Payments II                                               I.2       $3,000—OCFO and OCM drafted a directive re-
                            May 2011         Management
                                                                              flecting the current limit for micro-purchases and
                                                                              submitted it for OGC review. The target date for
                                                                              issuance is the second quarter of FY 2013.
                                                                              HRS and OCM should enhance information they
                                                                              collect and maintain on employees and contractors
                                                                              and develop internal control procedures to identify
                                                                              situations where a conflict of interest may exist—In
                           2011-SP-101     Office of Contracts
 Improper Payments II                                               II        May 2012, HRS implemented the National Finance
                            May 2011         Management
                                                                              Center Person Model containing non-employee
                                                                              data. During first quarter FY 2013, SUs will be
                                                                              trained to enter and update non-employee informa-
                                                                              tion.
 Human Resources Services (HRS)
                                                                              Develop and implement a structured procedure that
                                                                              provides a uniform method for making in/outsource
                                                                              personnel determinations. This procedure should
                                                                              provide the means to identify which activities are
                           2010-PA-105     Human Resources
 Multi-Sector Workforce                                              I        inherently governmental and which service provider
                           March 2011         Services
                                                                              represents the best value to the Library—OSO com-
                                                                              pleted its review of field data and best practices. The
                                                                              HCPB will assess OSO findings and make recom-
                                                                              mendations to the EC during FY 2013.
 Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                Office of                     Evaluate and revise LCR 2010-3.1—LCR 2010-3.1
 Equal Employment
                          2001-PA-104        Opportunity,                     was revised and approved by the EC and now awaits
 Opportunity                                                         I
                          February 2003    Inclusiveness, and                 bargaining with unions. The target completion date
 Complaints Office
                                              Compliance                      is December 2012.
                                                                              Revise LCR 2020-7 to allow complainants to use
                                                Office of                     dispute resolution during the formal complaint
 Dispute Resolution        2002-PA-104       Opportunity,                     process—LCR 2020-7 with proposed revisions has
                                                                    III
 Center                   September 2003   Inclusiveness, and                 been reviewed by the LCR Working Group and sent
                                              Compliance                      to the EC for approval. The target date for comple-
                                                                              tion is December 2012.




                                                                         Semiannual Report to the Congress • 38
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
        Subject           Report No.           Office           Rec. No.               Summary and Status of
                          Issue Date                                                     Recommendation
Office of Opportunity, Inclusiveness, and Compliance (OIC) Continued
                                                                           OIC in collaboration with the Library’s Human
                                                                           Capital Management Flexibilities Working Group
                                                                           (HCMFWG) should complete the barrier identi-
Follow-Up Review of the                         Office of                  fication and elimination process initiated with the
Office of Opportunity,     2011-PA-106       Opportunity,                  Multi-Year Affirmative Employment Program Plan
                                                                 II.2.b
Inclusiveness, and Com-     June 2011      Inclusiveness, and              by assessing the success of the plan—OIC will pres-
pliance                                       Compliance                   ent to the HCPB a proposed action plan for review
                                                                           and decision. The HCPB will include this on its FY
                                                                           2013 agenda with a target completion of third quar-
                                                                           ter FY 2013.
Library Services (LS)
                                                                           Establish criteria for specifically defining Top Trea-
                                                                           sure collection items and a clear process to nominate
Top Treasures Security
                           2008-PA-103                                     or transfer collection items to the category—The
and Preservation                            Library Services       I.a
                           January 2009                                    draft LCR was revised, updated, and finalized. It is
Controls
                                                                           now under review by the LCR Working Group with
                                                                           a target completion date of October 2012.
                                                                           National Library Service for the Blind and Physically
                                                                           Handicapped (NLS) should explore the cost/benefits
                                                                           of testing Digital Talking Book Machine (DTBM)
                          2011-PA-104                                      inventories as part of its periodic site visits to network
NLS Requirements                            Library Services       V
                          October 2011                                     regional libraries to ensure that the machines provid-
                                                                           ed to the agencies are being appropriately accounted
                                                                           for—NLS expects to incorporate the DTBM inven-
                                                                           tory review into all consultant visits in FY 2013.
                                                                           Create and maintain a perpetual inventory listing
                                                                           of all Congressional franking labels on hand with
                                                                           management periodically physically inventorying
                                                                           the labels—Surplus Books Program (SBP) manage-
                           2010-PA-106
Surplus Books Program                       Library Services      I.b.2    ment has presented Information Technology Services
                          September 2011
                                                                           (ITS) with a high-level requirements document for
                                                                           automation of SBP functions, including this require-
                                                                           ment. ITS estimates that this automation project will
                                                                           be completed by December 2013. 
                                                                           Update LCR 1816 to include designing a serialized
                                                                           document that is counterfeit resistant, reassigning
                                                                           the responsible office to ensure oversight, document-
                                                                           ing accountability, and implementing procedures to
                                                                           more appropriately account for and retire used passes.
                           2010-PA-106
Surplus Books Program                       Library Services      I.c.1    Also revise the LCR to implement a pass designed
                          September 2011
                                                                           for specific SBP use—LCR 1816 is under review for
                                                                           updating due to the police merger. OGC is working
                                                                           on this and several other regulations affected by the
                                                                           merger with a target for completion in first quarter
                                                                           FY 2013.




 39 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject              Report No.         Office          Rec. No.               Summary and Status of
                            Issue Date                                                  Recommendation
                                                                          SBP management should implement the use of a soft-
                                                                          ware application to collect and analyze program operat-
                                                                          ing data—SBP management has presented ITS with a
                            2010-PA-106
Surplus Books Program                       Library Services     II.a.1   high-level requirements document for automation of
                           September 2011
                                                                          SBP functions, including this requirement. ITS esti-
                                                                          mates that this automation project will be completed
                                                                          by December 2013. 
                                                                          LS management should collect the required data to
                                                                          conduct an analysis to determine whether the Library
                            2010-PA-106                                   derives tangible benefits from processing other agencies’
Surplus Books Program                       Library Services     II.c.1
                           September 2011                                 surplus material transfers—No action will be taken on
                                                                          this recommendation until the SBP moves back to its
                                                                          permanent space, scheduled for calendar year 2013.
                                                                          Design and implement an internal control system that
Performance-based           2010-PA-107                                   will ensure that valid and verifiable data will be collect-
                                            Library Services     II.2
Budgeting                   January 2011                                  ed and used to measure program performance—LS has
                                                                          not made progress in addressing this recommendation.
Office of Strategic Initiatives (OSI)
                                                                          All information technology (IT) costs including com-
                                                                          puter security should be accounted for as part of the IT
                                                                          budgetary process—The Office of the Librarian con-
Information                                  Information
                            2011-IT-103                                   tinues its information resources management (IRM)
Technology Strategic                         Technology          I.2.C
                           December 2011                                  plan implementation and IT spending and invest-
Planning Follow-up                             Services
                                                                          ment reviews. The results of these reviews will deter-
                                                                          mine whether any organizational or resource allocation
                                                                          changes are warranted.
                                                                          The Library should develop a cost-benefit analysis
                                                                          (analysis of alternatives) (CBA) process for all IT in-
                                                                          vestments and include risk criteria—ITS has devel-
Information                                  Information                  oped the criteria for instances when CBA need to be
                            2011-IT-103
Technology Strategic                         Technology         I.2.D     completed and templates to support the process. ITS
                           December 2011
Planning Follow-up                             Services                   will propose to the Deputy Librarian issuing a Library-
                                                                          wide directive requiring a documented CBA for all new
                                                                          IT projects that exceed $100,000. The target date for
                                                                          completion is December 2012.
                                                                          The Library should develop a methodology to main-
Information                                  Information                  tain and track all Library IT expenses—ITS and the
                            2011-IT-103
Technology Strategic                         Technology          I.2.E    OCFO disagree with this recommendation and state
                           December 2011
Planning Follow-up                             Services                   current processes are effective for controlling costs and
                                                                          preventing inappropriate and unnecessary acquisitions.
                                                                          Separate the IT support functions from OSI and es-
                                                                          tablish the Office of the Chief Information Officer
                                                                          (CIO) from the ITS Directorate and other IT support
                                                                          functions of OSI. The CIO will report directly to the
Information                                  Information                  Librarian or Chief Operating Officer with duties, re-
                            2011-IT-103
Technology Strategic                         Technology          I.3.A    sponsibilities, and authority consistent with best prac-
                           December 2011
Planning Follow-up                             Services                   tices—The Office of the Librarian continues its IRM
                                                                          plan implementation and IT spending and investment
                                                                          reviews. The results of these reviews will determine
                                                                          whether any organizational or resource allocation
                                                                          changes are warranted.


                                                                     Semiannual Report to the Congress • 40
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject             Report No.              Office       Rec. No.              Summary and Status of
                           Issue Date                                                   Recommendation
Office of Strategic Initiatives (OSI) Continued
                                                                           Include all Enterprise Architecture (EA) costs in
                                                                           a single budget line item for the entire Library to
Information                                       Information              avoid creating a burdensome or costly process for
                           2011-IT-103
Technology Strategic                              Technology     I.4.D     system owners—Library management does not be-
                          December 2011
Planning Follow-up                                  Services               lieve that the administrative overhead required to
                                                                           create a separate cost center for a single individual
                                                                           is justified.
                                                                           Implement Service Level Agreements (SLAs) to
                                                                           manage customer expectations—Footprints was
Information                                       Information              implemented in June 2012 to support ITS service
                           2011-IT-103
Technology Strategic                              Technology      I.5.A    requests. ITS is in the process of determining what
                          December 2011
Planning Follow-up                                  Services               tasks will be required to implement meaningful and
                                                                           effective SLAs. The target completion date is June
                                                                           2013.
                                                                           Rather than offering the new help desk system as an
                                                                           interface, ITS should require all technology offices
                                                                           throughout the Library to use a standard help desk
Information                                       Information
                           2011-IT-103                                     system to take advantage of economies of scale—
Technology Strategic                              Technology     I.5.D
                          December 2011                                    ITS will propose to the Deputy Librarian that all
Planning Follow-up                                  Services
                                                                           Library SUs migrate to a single help desk system
                                                                           (Footprints). The target date for completion is De-
                                                                           cember 2012.
                                                                           Develop a set of metrics for ongoing use to mea-
                                                                           sure performance. These metrics should change and
                                                                           evolve over time as one area shows improvement;
Information                                       Information
                           2011-IT-103                                     new metrics should be developed for other areas—
Technology Strategic                              Technology      I.5.F
                          December 2011                                    ITS is in the process of determining what tasks are
Planning Follow-up                                  Services
                                                                           required to develop meaningful and effective met-
                                                                           rics to measure customer service performance. The
                                                                           target date for completion is June 2013.
                                                                           Conduct regular customer surveys and open infor-
                                                                           mational meetings—ITS is in the process of deter-
Information                                       Information
                           2011-IT-103                                     mining what tasks are required to develop meaning-
Technology Strategic                              Technology      I.5.G
                          December 2011                                    ful and effective metrics to measure customer service
Planning Follow-up                                  Services
                                                                           performance. The target date for completion is June
                                                                           2013.
                                                                           Coordinate with service and support units to iden-
                                                                           tify and prioritize the legacy systems/applications
                                                                           that require certification and accreditation (C&A)
Information                                       Information
                           2011-IT-103                                     evaluations, and determine how the required evalu-
Technology Strategic                              Technology      II.1
                          December 2011                                    ations should be funded—ITS proposed changes to
Planning Follow-up                                  Services
                                                                           LCR 1620 to address the C&A of legacy systems
                                                                           and those changes are under OGC review. The tar-
                                                                           get completion date is the first quarter of FY 2013.
                                                                           Develop an LCR that establishes the responsibili-
Information                                       Information              ties of the Architecture Review Board (ARB)—The
                           2011-IT-103
Technology Strategic                              Technology      III.3    LCR establishing the responsibilities of the ARB was
                          December 2011
Planning Follow-up                                  Services               sent to the Executive Committee for approval. The
                                                                           target completion date is the first quarter FY 2013.



 41 • Semiannual Report to the Congress
Above: Lamp and Post Decorations for the Library of Con-
gress Building by Smithmeyer & Pelz, Architects.

Ink on Linen, c. 1889-1896.

 Semiannual Report to the Congress • 42
Implemented and Closed Recommendations
Table 4B: 	      Significant Recommendations from Previous Semiannual Reports
                 Which Were Implemented or Closed During This Period
        Subject            Report No.         Office           Rec. No.          Summary of Recommendation
                           Issue Date                                                   and Action
Office of Support Operations (OSO)
                                                                          Initiate a program to provide active oversight of SUs’
                                                                          record keeping practices. Ensure that the oversight
                                                                          program’s design provides adequate assurance that
Retention of Federal       2009-PA-104    Office of Systems               SUs’ practices comply with the Federal Records Act
                                                                  I.b
Records                    March 2010          Services                   and National Archives and Records Administration
                                                                          regulations—Integrated Support Services (ISS) com-
                                                                          pleted its Library-wide rollout of the online Records
                                                                          Management Training program in June 2012.
                                                                          Develop and implement a training program on fed-
Retention of Federal       2009-PA-104    Office of Systems               eral records management for Library staff—ISS com-
                                                                  I.c
Records                    March 2010          Services                   pleted its Library-wide rollout of the online Records
                                                                          Management Training program in June 2012.
                                                                          Perform a CBA to determine whether the Library
                                                                          should implement an electronic record-keeping sys-
                                                                          tem—The Library will be required by the National
Retention of Federal       2009-PA-104    Office of Systems
                                                                  II      Archives and Records Administration to implement
Records                    March 2010          Services
                                                                          an email records management system by 2016 and
                                                                          an entity-wide electronic records management sys-
                                                                          tem by 2019.
Office of Contracts Management (OCM)
                                                                          Examine the need for both a Director and Chief of
                                                                          Contracts position. If retained, both roles and re-
                                                                          sponsibilities should be clearly defined—The Library
Weaknesses in the          2011-SP-106   Office of Contracts
                                                                 I.B.2    reviewed best practices of similar legislative branch
Acquisition Function       March 2012      Management
                                                                          agencies and found that both positions are appro-
                                                                          priate to the organization. Clearly defined position
                                                                          descriptions are in place.
                                                                          Define and implement an organizational structure
                                                                          for the OCM that provides a reasonable supervisory
Weaknesses in the          2011-SP-106   Office of Contracts              span of control—In May 2012, OCM hired two
                                                                 I.C.1
Acquisition Function       March 2012      Management                     additional GS-14 Supervisory Contracting Special-
                                                                          ists for a total of three supervisors, establishing an
                                                                          appropriate span of control.
                                                                          Develop a balanced scorecard approach to measure
Weaknesses in the          2011-SP-106   Office of Contracts              the effectiveness of the contracting function—OCM
                                                                I.D.1
Acquisition Function       March 2012      Management                     implemented a performance dashboard to track
                                                                          monthly key operational performance metrics.
                                                                          Quickly develop and implement a rigorous training
                                                                          program—OCM developed and funded a training
                                                                          curriculum commensurate with Office of Federal
Weaknesses in the          2011-SP-106   Office of Contracts
                                                                 I.E.1    Procurement Policy requirements. Certification and
Acquisition Function       March 2012      Management
                                                                          developmental training is ongoing with a total of
                                                                          1,200 certification training hours completed as of
                                                                          June 2012.




43 • Semiannual Report to the Congress
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period
        Subject          Report No.         Office           Rec. No.          Summary of Recommendation
                         Issue Date                                                   and Action
                                                                        Develop training goals for all staff—OCM devel-
                                                                        oped training goals for 1102- and 1105-series staff.
                                                                        The 1102 series staff will achieve certification within
                                                                        12-14 months. 83% of the 1102-series Contracting
Weaknesses in the        2011-SP-106   Office of Contracts
                                                               I.E.2    Specialists hired between February 2011 and May
Acquisition Function     March 2012      Management
                                                                        2012 are certified as Federal Acquisition Certifica-
                                                                        tion in Contracting Program (FAC-C) Levels I, II,
                                                                        or III. The 1105-series staff are also scheduled for
                                                                        certification training.
                                                                        Ensure all staff members have individual develop-
                                                                        ment plans—OCM implemented a Performance
Weaknesses in the        2011-SP-106   Office of Contracts
                                                               I.E.3    Management Program including Individual Devel-
Acquisition Function     March 2012      Management
                                                                        opment Plans requiring mid-year reviews and perfor-
                                                                        mance improvements as appropriate.
                                                                        Develop and implement an orientation/mentoring
Weaknesses in the        2011-SP-106   Office of Contracts              program for new employees—OCM developed and
                                                               I.E.4
Acquisition Function     March 2012      Management                     implemented an orientation program for new and
                                                                        existing Contracts staff.
                                                                        Institute internal controls requiring at least a peer
                                                                        review by a supervisor or a contracting officer with
                                                                        a minimum of a FAC-C Level I certification on all
Weaknesses in the        2011-SP-106   Office of Contracts
                                                               I.G.1    procurement actions over the micro-purchase thresh-
Acquisition Function     March 2012      Management
                                                                        old—Awards over and under the micro-purchase
                                                                        threshold are now reviewed by a GS-14 supervisor or
                                                                        contracting officer.
                                                                        Provide outreach training to those customers needing
                                                                        a better understanding of their acquisition-related
                                                                        duties and responsibilities—OCM provided during
                                                                        FY 2012: 1) Federal Acquisition Regulations (FAR)
                                                                        Immersion Training to Library Contracting Officer
Weaknesses in the        2011-SP-106   Office of Contracts
                                                              II.B.1    Representatives (COR); 2) FAR-COR training Li-
Acquisition Function     March 2012      Management
                                                                        brary-wide; 3) Market research and IGCE training
                                                                        to CORs and OCM staff; 4) assistance to SU pro-
                                                                        gram managers to validate COR lists and guidance
                                                                        on latest COR certification requirements; and 5)
                                                                        updated Intranet site to include a virtual help desk.
                                                                        Conduct intensive training for all in the acquisition
                                                                        chain regarding limits on sole source contracting,
                                                                        developing proper justifications, and emphasizing
                                                                        the benefits of competition—OCM implemented:
                                                                        1) FAC-COR training including instruction on sole
Weaknesses in the        2011-SP-106   Office of Contracts
                                                              II.C.1    source contracting, developing proper justifications,
Acquisition Function     March 2012      Management
                                                                        and the benefits of competition, 2) an enhanced in-
                                                                        tranet site with a virtual help desk, and 3) realigned
                                                                        the Competition Advocate Program with OGC
                                                                        online instructions and guidance on competitive
                                                                        awards and sole source justifications.




                                                                  Semiannual Report to the Congress • 44
Implemented and Closed Recommendations
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period
        Subject           Report No.             Office         Rec. No.          Summary of Recommendation
                          Issue Date                                                     and Action
Office of Contracts Management (OCM) Continued
                                                                           Create a method to track all sole source procure-
                                                                           ments and develop a plan to target a certain per-
                                                                           centage of those procurements for conversion to a
                                                                           competitive track—OCM now tracks competitive
Weaknesses in the          2011-SP-106    Office of Contracts
                                                                 II.C.2    and sole source procurements as part of its perfor-
Acquisition Function       March 2012       Management
                                                                           mance metrics. Management does not agree with es-
                                                                           tablishing target conversion percentages. OCM will
                                                                           partner with SUs to identify acquisitions that may be
                                                                           converted to competitive awards.
                                                                           Develop directives on appropriate use of sole source
                                                                           contracting and FAR synopsis requirements—FAR
Weaknesses in the          2011-SP-106    Office of Contracts              synopsis requirements are now codified. OCM re-
                                                                 II.C.3
Acquisition Function       March 2012       Management                     aligned the Competition Advocate Program and
                                                                           implemented new program guidance on the use and
                                                                           justification for sole source awards.
                                                                           Implement a set of controls to ensure higher-level ap-
                                                                           proval (i.e., Chief of Contracting) is obtained at the
                                                                           acquisition planning stage for all sole source procure-
Weaknesses in the          2011-SP-106    Office of Contracts              ments above the micro-purchase threshold—The
                                                                 II.C.4
Acquisition Function       March 2012       Management                     Competition Advocate Program was realigned to the
                                                                           OGC online instructions and guidance on competi-
                                                                           tive awards and sole source justifications to implement
                                                                           this.
                                                                           Ensure that performance plans contain performance
                                                                           standards related to obtaining competition and that
Weaknesses in the          2011-SP-106    Office of Contracts
                                                                 II.C.5    staff are rated accordingly—OCM staff performance
Acquisition Function       March 2012       Management
                                                                           plans now require compliance with all FAR standards,
                                                                           including full and open competition as appropriate.
                                                                           Develop a competition advocate program so that op-
                                                                           portunities for competition are not missed—OCM
                                                                           realigned the Competition Advocate Program with
                                                                           the OGC online instructions and guidance on com-
Weaknesses in the          2011-SP-106    Office of Contracts
                                                                 II.C.6    petitive awards and sole source justifications. Program
Acquisition Function       March 2012       Management
                                                                           requirements for competitive and sole source procure-
                                                                           ments have been communicated to SUs and program
                                                                           guidance, levels of approvals, and justification tem-
                                                                           plates are on the OGC Intranet site.
                                                                           Establish a control process to prevent inadequate
                                                                           IGCEs from being used—OCM implemented a two-
Weaknesses in the          2011-SP-106    Office of Contracts              pronged approach to establishing a control process by:
                                                                 II.D.1
Acquisition Function       March 2012       Management                     1) implementing ICGE training for CORs and OCM
                                                                           staff, and 2) requiring contracting officers to validate
                                                                           the sufficiency of each ICGE.
                                                                           Develop clear guidance and IGCE templates for cus-
Weaknesses in the          2011-SP-106    Office of Contracts              tomers—OCM updated and enhanced its Intranet
                                                                 II.D.2
Acquisition Function       March 2012       Management                     site to include IGCE templates and guidance for cus-
                                                                           tomers.




45 • Semiannual Report to the Congress
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period
        Subject          Report No.         Office           Rec. No.          Summary of Recommendation
                         Issue Date                                                   and Action
                                                                        Provide training for all in the acquisition chain for the
                                                                        preparation of IGCEs—FAR-COR training includes
Weaknesses in the        2011-SP-106   Office of Contracts
                                                              II.E.1    instruction on preparing an IGCE. IGCE-specific
Acquisition Function     March 2012      Management
                                                                        training was held for all OCM staff and CORs and
                                                                        added to the procurement curriculum.
                                                                        Ensure that providing fair and reasonable cost esti-
                                                                        mates/price analysis is included in performance plans
                                                                        for contracting officers and considered during per-
Weaknesses in the        2011-SP-106   Office of Contracts
                                                              II.E.2    formance reviews—Contract Specialist performance
Acquisition Function     March 2012      Management
                                                                        plans require proficiency in the solicitation, nego-
                                                                        tiation, and award process, and are factors considered
                                                                        during performance reviews.
                                                                        Provide training on proper use and applicability of
                                                                        labor hour contracts and the requirement to prepare
Weaknesses in the        2011-SP-106   Office of Contracts
                                                               II.F.1   a determination and finding (D&F)—OCM imple-
Acquisition Function     March 2012      Management
                                                                        mented in-house training on the proper use of labor
                                                                        hour contracts and required documentation.
                                                                        Develop a D&F template for contracting officers—
Weaknesses in the        2011-SP-106   Office of Contracts
                                                               II.F.2   OCM has developed and implemented a D&F tem-
Acquisition Function     March 2012      Management
                                                                        plate for contracting officers.
                                                                        Ensure that the contracting officer and management
                                                                        officials approving contracts pay special attention to
                                                                        all contracts that fall under LCR 2111 when con-
Weaknesses in the        2011-SP-106   Office of Contracts
                                                              II.G.2    ducting reviews—LCR 2111 prescribes the levels of
Acquisition Function     March 2012      Management
                                                                        review and approval signatures required for awards
                                                                        based on amount and the former employment status
                                                                        of the contractor. OCM quality review will monitor.
                                                                        Ensure all staff are trained on the different procure-
                                                                        ment vehicles and contract types available and on
Weaknesses in the        2011-SP-106   Office of Contracts
                                                              II.H.1    their appropriate use—OCM implemented training
Acquisition Function     March 2012      Management
                                                                        on the types of procurement vehicles and their use as
                                                                        part of ongoing certification training.
                                                                        Provide training for all in the acquisition chain re-
                                                                        garding limits on the use of options and the level
                                                                        of documentation required when they are included
Weaknesses in the        2011-SP-106   Office of Contracts              or exercised—OCM supervisors will provide con-
                                                               II.I.1
Acquisition Function     March 2012      Management                     tinuous team training to assure options are properly
                                                                        used. The use of options and the level of documen-
                                                                        tation required will be included in acquisition plan-
                                                                        ning sessions with SUs.
                                                                        Conduct spot check reviews that solicitations are
Weaknesses in the        2011-SP-106   Office of Contracts              being prepared in Momentum—Solicitations are
                                                               II.J.3
Acquisition Function     March 2012      Management                     prepared in Momentum and staff inform the system
                                                                        owner of any system issues.
                                                                        Develop a contracting specialist performance stan-
                                                                        dard for “creating and documenting all required ac-
Weaknesses in the        2011-SP-106   Office of Contracts              tions in Momentum”—Contracting specialists only
                                                               II.J.4
Acquisition Function     March 2012      Management                     use Momentum for preparing and executing pro-
                                                                        curement actions and inform the system owner of
                                                                        any system issues.


                                                                   Semiannual Report to the Congress • 46
Implemented and Closed Recommendations
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period
        Subject           Report No.             Office         Rec. No.          Summary of Recommendation
                          Issue Date                                                     and Action
Office of Contracts Management (OCM) Continued
                                                                           Provide necessary training on the proper use of Mo-
Weaknesses in the          2011-SP-106    Office of Contracts              mentum acquisitions to appropriate Library users—
                                                                  II.J.5
Acquisition Function       March 2012       Management                     The system owner (OCFO) provides training for
                                                                           Momentum via its help desk and its Web site.
                                                                           Track “Contracting Specialist Use of Momentum”
Weaknesses in the          2011-SP-106    Office of Contracts              as a performance metric—Management disputes the
                                                                  II.J.6
Acquisition Function       March 2012       Management                     value of this as a metric. Recommendation closed
                                                                           since Momentum is the requisite system.
                                                                           Develop a customer survey tool in order to solicit
Weaknesses in the          2011-SP-106    Office of Contracts              customer feedback—OCM updated and enhanced
                                                                 III.A.1
Acquisition Function       March 2012       Management                     its Intranet site to include a customer survey tool for
                                                                           customer feedback.
                                                                           Revise performance plans to emphasize sound, pro-
Weaknesses in the          2011-SP-106    Office of Contracts              active communication with customers—OCM per-
                                                                 III.A.2
Acquisition Function       March 2012       Management                     formance plans now include accountability for com-
                                                                           munication with customers.
                                                                           The Chief of Contracts should develop and imple-
                                                                           ment a plan to improve OCM’s communication and
                                                                           relationships with customers—OCM implemented
Weaknesses in the          2011-SP-106    Office of Contracts              a communications strategy that includes regularly
                                                                 III.A.3
Acquisition Function       March 2012       Management                     scheduled meetings with customers, monthly meet-
                                                                           ings with the Contracts Working Group, hotline
                                                                           number, email, and customer survey via the OCM
                                                                           Intranet site.
                                                                           Provide outreach training to those customers need-
                                                                           ing a better understanding of their acquisition-re-
                                                                           lated duties and responsibilities—OCM provided:
Weaknesses in the          2011-SP-106    Office of Contracts              1) week-long FAR Immersion Training to Library
                                                                 III.B.2
Acquisition Function       March 2012       Management                     CORs, 2) FAR-COR training Library-wide, 3) guid-
                                                                           ance on the latest COR certification requirements,
                                                                           and 4) a virtual help desk with information about the
                                                                           contracts process.
                                                                           Require Library senior leadership to enforce cus-
                                                                           tomer training/performance of acquisition-related
                                                                           roles—OCM distributed guidance to senior level
Weaknesses in the          2011-SP-106    Office of Contracts              management for new COR certification require-
                                                                 III.B.3
Acquisition Function       March 2012       Management                     ments, met with SU directors to discuss COR re-
                                                                           sponsibilities, and partnered with OCFO/Strategic
                                                                           Planning Office to implement vulnerability assess-
                                                                           ment statements for CORs.
                                                                           Rapidly develop a COR training program and in-
                                                                           stitute a process to record and monitor COR train-
                                                                           ing—OCM implemented FAC-COR Level II certi-
Weaknesses in the          2011-SP-106    Office of Contracts
                                                                 III.C.1   fication training. The Library’s learning management
Acquisition Function       March 2012       Management
                                                                           system tracks COR training and certification. All
                                                                           CORs must successfully complete certification train-
                                                                           ing by January 2014 to retain their status.




47 • Semiannual Report to the Congress
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period
        Subject           Report No.           Office           Rec. No.            Summary of Recommendation
                          Issue Date                                                       and Action
                                                                             Appoint CORs only after they have taken the req-
                                                                             uisite training—The Library revised COR require-
Weaknesses in the          2011-SP-106    Office of Contracts                ments, implemented FAC-COR training, and now
                                                                 III.C.2
Acquisition Function       March 2012       Management                       assigns CORs based on FAC-COR certification re-
                                                                             quirements. All CORs must have completed certifi-
                                                                             cation training by January 2014.
                                                                             Track “Percentage of COR Certifications” as a per-
Weaknesses in the          2011-SP-106    Office of Contracts                formance metric—Tracking of COR certifications
                                                                 III.C.3
Acquisition Function       March 2012       Management                       implemented. SUs notified when staff do not pass
                                                                             the test so retesting or retraining occur.
                                                                             Provide the Office of Business Enterprises (OBE)
                                                                             with alternative ordering methods such as blanket
                           2011-SP-101    Office of Contracts
Improper Payments II                                               I.1       purchase agreements (BPA) to meet their purchase
                            May 2011        Management
                                                                             turnaround requirements—BPAs established for
                                                                             OBE June 2012.
Human Resources Services (HRS)
                                                                             Require managers to complete on-line refresher
                                                                             training annually on material in the Supervisors
                                               Human                         Handbook, similar to the annual training required
Employment Incentives     2010-PA-103
                                              Resources           I.1.b      of all Library employees on IT security awareness—
and Flexibilities           July 2010
                                               Services                      The Library implemented the Essential Supervisory
                                                                             Skills training course on basic supervisory compe-
                                                                             tencies which is mandatory for all supervisors.
                                                                             Prepare performance appraisals which compare em-
                                                                             ployees’ actual accomplishments with corresponding
                                               Human
                           2009-PA-101                                       performance requirements—HRS implemented a
Workforce Acquisitions                        Resources           II.1
                          November 2009                                      Library-wide performance program in FY 2011 and
                                               Services
                                                                             completed its first performance cycle for the period
                                                                             9/2011-8/2012.
                                                                             Establish a system to collect and maintain data rep-
                                                                             resenting the total composition of the Library’s direct
                                               Human                         hire and contractor workforce. Ensure that the data
                           2010-PA-105
Multi-Sector Workforce                        Resources            II        maintained in the system is current, complete, and
                           March 2011
                                               Services                      accurate at all times—In May 2012, HRS imple-
                                                                             mented the National Finance Center Person Model
                                                                             containing non-employee data to accomplish this.
Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                                             OIC in collaboration with the HCMFWG should
                                                                             implement 2008 recommendation to track perfor-
Follow-Up Review of the                       Office of
                                                                             mance evaluations to determine whether there is
Office of Opportunity,     2011-PA-106      Opportunity,
                                                                  II.1       consistency among groups—The EC does not agree
Inclusiveness, and          June 2011     Inclusiveness, and
                                                                             that the Library should track performance evalua-
Compliance                                   Compliance
                                                                             tions to determine consistency among groups. This
                                                                             recommendation is closed with no ation.
                                                                             OIC should make the Library’s “No Fear” data avail-
Follow-Up Review of the                       Office of
                                                                             able to staff—The No Fear Act is not applicable to
Office of Opportunity,     2011-PA-106      Opportunity,
                                                                   V         the Library and the EC has declined the recom-
Inclusiveness, and          June 2011     Inclusiveness, and
                                                                             mendation. This recommendation is closed with no
Compliance                                   Compliance
                                                                             ation.




                                                                         Semiannual Report to the Congress • 48
Implemented and Closed Recommendations
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
                Which Were Implemented or Closed During This Period
        Subject              Report No.         Office          Rec. No.          Summary of Recommendation
                             Issue Date                                                  and Action
Library Services (LS)
                                                                           The NLS should apply Statement of Federal Financial
                                                                           Accounting Standards Number 4, Managerial Cost
                                                                           Accounting Concepts, to reports it issues regarding
                                                                           the Talking Book Program’s cost—NLS reviewed
                                                                           the cost accounting standard and determined that it
                             2011-PA-104
NLS Requirements                             Library Services      IV      would need to conduct a study costing $80,000 to
                             October 2011
                                                                           $120,000 to comply with minimal benefits derived.
                                                                           NLS decided to revise reporting language to disclose
                                                                           that equipment costs include direct costs only and
                                                                           are not intended to reflect overall costs of the pro-
                                                                           gram. OIG agrees with NLS.
                                                                           Reevaluate background investigation procedures
                                                                           for Rare Book and Special Collections Division
                                                                           (RBSCD)’s management and periodically update
                                                                           background investigations—Background investiga-
                                                                           tions for RBSCD’s management officials are com-
Rare Book and Special         2008-PA-101
                                             Library Services      I.f     pleted. Periodic updates of background investigations
Collections Security          March 2009
                                                                           will be initiated when Office of Personnel Manage-
                                                                           ment issues federal agencies implementing guidance
                                                                           for recent changes to 5 CFR Part 731, Regulations
                                                                           for Conducting Periodic Reinvestigations for Public
                                                                           Trust Positions.
                                                                           Develop and implement a uniform program partici-
                                                                           pant application that requires completion of all eligi-
                                                                           bility information including the applicant’s Internal
                             2010-PA-106
Surplus Books Program                        Library Services     I.a.2    Revenue Service-issued tax identification number—
                            September 2011
                                                                           LS in consultation with OGC developed and imple-
                                                                           mented the recommended application form and a
                                                                           guidelines document.
Office of Strategic Initiatives (OSI)
                                                                           Create a process to ensure that the IT Strategic Plan
                                                                           aligns directly with, flows from, and includes the
Information Technology                        Information
                             2011-IT-103                                   same goals as the Library’s Strategic Plan—OSI is-
Strategic Planning                            Technology          I.1.A
                            December 2011                                  sued its FY 2011-2016 Strategic Plan in December
Follow-up                                       Services
                                                                           2011 which aligns with the Library’s mission and
                                                                           goals.
                                                                           The Library should continue to develop an enterprise
                                                                           architecture that will lead to the creation of a trans-
Information Technology                        Information                  formational guide—The Library implemented this
                             2011-IT-103
Strategic Planning                            Technology         I.1.D     with its Information Resources Management Plan
                            December 2011
Follow-up                                       Services                   and its Library-wide technology initiatives, such as
                                                                           the Project One and Web Delivery Infrastructure
                                                                           projects.
                                                                           ITS should maintain a collective IT portfolio which
                                                                           lists and prioritizes all IT investments requiring up-
                                                                           grade or implementation. The portfolio should not
Information Technology                        Information
                             2011-IT-103                                   be limited to investments which meet one of the six
Strategic Planning                            Technology          I.2.A
                            December 2011                                  vetting/approval criteria of the ITSC—ITS imple-
Follow-up                                       Services
                                                                           mented a comprehensive project portfolio repository
                                                                           that identifies and prioritizes IT projects that do not
                                                                           meet the ITSC threshold for review.

 49 • Semiannual Report to the Congress
Table 4B: 	    Significant Recommendations from Previous Semiannual Reports
               Which Were Implemented or Closed During This Period
        Subject          Report No.       Office       Rec. No.               Summary of Recommendation
                         Issue Date                                                  and Action
                                                                      The CIO, as head of the Library’s IT strategic plan-
                                                                      ning, should develop a structured procedure which
                                                                      continuously identifies and prevents duplicative IT
Information Technology                   Information
                          2011-IT-103                                 costs throughout the Library by consolidating IT ser-
Strategic Planning                       Technology      I.2.B
                         December 2011                                vices—The CIO (as head of the ITSC) implemented
Follow-up                                  Services
                                                                      Library-wide IT investment policies and procedures
                                                                      that align with the Library’s strategic objectives and
                                                                      serve to prevent duplicative IT costs.
                                                                      Verify that all Library systems are up-to-date regard-
                                                                      ing C&A and authority to operate requirements, and
Information Technology                   Information                  take appropriate action to ensure the systems’ com-
                          2011-IT-103
Strategic Planning                       Technology      II.2         pliance with those requirements is maintained in the
                         December 2011
Follow-up                                  Services                   future—ITS now includes the Deputy Librarian in
                                                                      quarterly reporting to designated approving authori-
                                                                      ties on IT system accreditation non-compliance.
                                                                      Increase communication and directional oversight
Information Technology                   Information                  of the Library’s ongoing EA development by having
                          2011-IT-103
Strategic Planning                       Technology      III.1        the Chief Architect provide updates at each ITSC
                         December 2011
Follow-up                                  Services                   meeting—The Chief Architect now attends all ITSC
                                                                      meetings and provides updates on EA activities.
                                                                      Continually review, update, and approve annual ob-
                                                                      jectives and tasks for EA development, and review
Information Technology                   Information
                          2011-IT-103                                 performance metrics regarding the achievement of
Strategic Planning                       Technology      III.2
                         December 2011                                those milestones—The Chief Architect now attends
Follow-up                                  Services
                                                                      all ITSC meetings and provides updates on EA ac-
                                                                      tivities.




                                                           Above: Neptune Plaza Stonework for the Thomas Jefferson
                                                           Building by Smithmeyer & Pelz, Architects.

                                                           Ink on Linen, c. 1894.

                                                            Semiannual Report to the Congress • 50
       Funds Questioned or Put to Better Use
           Table 5:	         Audits with Recommendations for Better Use of Funds
                                                                               Number of Audit    Total Funds Put
                                                                                  Reports          to Better Use
           No management decision was made by the start of the period:                 -                 -

           Issued during the period:                                                   -                 -
           In need of management decision during the period:                           -                 -
           Management decision made during the reporting period:
                                                                                                                *
                    Value of recommendations agreed to by management                  1              $355,190

                    Value of recommendations not agreed to by management               -                  -

           No management decision made by the end of the reporting period:

                    Less than 6 months old:                                            -                 -

                    More than 6 months old:




           Table 6:	         Audits with Questioned Costs
                                                                               Number of Audit      Total Ques-
                                                                                  Reports          tioned Costs

           No management decision made by the start of the period:                     -                 -

           Issued during the period:                                                   -                 -
           In need of management decision during the period:                           -                 -
           Management decision made during the reporting period:

                    Value of recommendations agreed to by management                   -                 -

                    Value of recommendations not agreed to by management               -                 -

           No management decision made by the end of the reporting period:

                    Less than 6 months old:                                            -                 -

                    More than 6 months old:                                           1              $771,163
                                                                                                              **




       *Information Technology Services, Integrated Support Services: Improvements Needed to Prevent Wasteful
       Procurement and Inefficient Disposal of IT Workstations, Report No. 2012-PA-101, September 2012 (see page
       15).

        Office of Strategic Initiatives, Information Technology Services: Inadequate Contract Oversight Exposed the
       **

       Library to Questionable Contractor Payments, Audit Report No. 2011-PA-109, March 2012 (see page 19 of our
       March 2012 Semiannual Report).


51 • Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.

Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.

Significant Management Decisions
with Which OIG Disagrees
During this reporting period there were no significant management decisions with which OIG disagreed.

Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual pe-
riod. Management’s comments on the status of individual recommendations appear in table 4A. Recom-
mendations management asserts it has implemented during the period appear in table 4B. In order to
confirm that recommendations have been implemented as reported, we perform periodic follow-up on
selected projects to verify implementation; however, all assertions contained in table 4B are the representa-
tions of management.




                                                                 Semiannual Report to the Congress • 52
OIG Organizational Chart



                                                                    Inspector General
                                                                    Karl W. Schornagel, CPA
                         Counsel to the IG                                                                 Administrative Officer
                         E. Wade Green, Jr.
                                                                                                           Sheetal Gupta
                         (Under Interagency Agreement)




                    Assistant Inspector                                                                  Assistant Inspector
                    General for Audits                                                                   General for Investigations
                    Vacant                                                                               Vacant




 Senior Lead Auditor                          Auditor                                 Special Agent                            Special Agent in Charge
 John R. Mech                                 Elizabeth Valentin                       Pamela D. Hawe                          Thomas E. Williams
 CPA                                          CPA, CISA                               (Part-time)                              CCE, ACE, SCERS



 Auditor                                      IT Specialist                           Special Agent                            Investigator
 Walter E. Obando                             Lawrence D. Olmsted                     Hugh D. Coughlin                         Barbara A. Hennix
 CIA, CISA



 Auditor                                      Management Analyst                                           Management Analyst
 Christine C. Cochrane                        Jennifer R. Bosch                                            Michael R. Peters
 CPA



                         Management Analyst
                     Sarah E. Sullivan




53 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                     Inspector General

                    Library of Congress

              101 Independence Avenue, S.E.
                           LM-630

               Washington, DC 20540 -1060




   Main Telephone Number:           (202) 707-6314

               Fax Number:          (202) 707-6032

 Hotline Telephone Number:          (202) 707-6306

             Hotline Email:         oighotline@loc.gov

                   P.O. Box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
Office of the Inspector General
101 Independence Avenue SE
Washington, DC 20540-1060
tel 202.707.6314 hotline 202.707.6306
www.loc.gov/about/oig/
